<html>
<title> - H.R. 39, TO REQUIRE THE SECRETARY OF THE INTERIOR TO ESTABLISH A PROGRAM TO PROVIDE ASSISTANCE IN THE CONSERVATION OF NEOTROPICAL MIGRATORY BIRDS</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]



 
   H.R. 39, TO REQUIRE THE SECRETARY OF THE INTERIOR TO ESTABLISH A 
   PROGRAM TO PROVIDE ASSISTANCE IN THE CONSERVATION OF NEOTROPICAL 
                            MIGRATORY BIRDS

=======================================================================

                                HEARING

                               before the

      SUBCOMMITTEE ON FISHERIES CONSERVATION, WILDLIFE AND OCEANS

                                 of the

                         COMMITTEE ON RESOURCES
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS

                             FIRST SESSION

                               __________

                   FEBRUARY 11, 1999, WASHINGTON, DC

                               __________

                            Serial No. 106-5

                               __________

           Printed for the use of the Committee on Resources


                                <snowflake>

 Available via the World Wide Web: http://www.access.gpo.gov/congress/house
                                   or
           Committee address: http://www.house.gov/resources


                      U.S. GOVERNMENT PRINTING OFFICE
 55-004                      WASHINGTON : 1999
------------------------------------------------------------------------------
                   For sale by the U.S. Government Printing Office
 Superintendent of Documents, Congressional Sales Office, Washington, DC 20402



                         COMMITTEE ON RESOURCES

                      DON YOUNG, Alaska, Chairman
W.J. (BILLY) TAUZIN, Louisiana       GEORGE MILLER, California
JAMES V. HANSEN, Utah                NICK J. RAHALL II, West Virginia
JIM SAXTON, New Jersey               BRUCE F. VENTO, Minnesota
ELTON GALLEGLY, California           DALE E. KILDEE, Michigan
JOHN J. DUNCAN, Jr., Tennessee       PETER A. DeFAZIO, Oregon
JOEL HEFLEY, Colorado                ENI F.H. FALEOMAVAEGA, American 
JOHN T. DOOLITTLE, California            Samoa
WAYNE T. GILCHREST, Maryland         NEIL ABERCROMBIE, Hawaii
KEN CALVERT, California              SOLOMON P. ORTIZ, Texas
RICHARD W. POMBO, California         OWEN B. PICKETT, Virginia
BARBARA CUBIN, Wyoming               FRANK PALLONE, Jr., New Jersey
HELEN CHENOWETH, Idaho               CALVIN M. DOOLEY, California
GEORGE P. RADANOVICH, California     CARLOS A. ROMERO-BARCELO, Puerto 
WALTER B. JONES, Jr., North              Rico
    Carolina                         ROBERT A. UNDERWOOD, Guam
WILLIAM M. (MAC) THORNBERRY, Texas   PATRICK J. KENNEDY, Rhode Island
CHRIS CANNON, Utah                   ADAM SMITH, Washington
KEVIN BRADY, Texas                   WILLIAM D. DELAHUNT, Massachusetts
JOHN PETERSON, Pennsylvania          CHRIS JOHN, Louisiana
RICK HILL, Montana                   DONNA CHRISTIAN-CHRISTENSEN, 
BOB SCHAFFER, Colorado                   Virgin Islands
JIM GIBBONS, Nevada                  RON KIND, Wisconsin
MARK E. SOUDER, Indiana              JAY INSLEE, Washington
GREG WALDEN, Oregon                  GRACE F. NAPOLITANO, California
DON SHERWOOD, Pennsylvania           TOM UDALL, New Mexico
ROBIN HAYES, North Carolina          MARK UDALL, Colorado
MIKE SIMPSON, Idaho                  JOSEPH CROWLEY, New York
THOMAS G. TANCREDO, Colorado

                     Lloyd A. Jones, Chief of Staff
                   Elizabeth Megginson, Chief Counsel
              Christine Kennedy, Chief Clerk/Administrator
                John Lawrence, Democratic Staff Director
                                 ------                                

      Subcommittee on Fisheries Conservation, Wildlife and Oceans

                    JIM SAXTON, New Jersey, Chairman
W.J. (BILLY) TAUZIN, Louisiana       ENI F.H. FALEOMAVAEGA, American 
JAMES V. HANSEN, Utah                    Samoa
WAYNE T. GILCHREST, Maryland         BRUCE F. VENTO, Minnesota
RICHARD W. POMBO, California         PETER A. DeFAZIO, Oregon
WALTER B. JONES, Jr., North          NEIL ABERCROMBIE, Hawaii
    Carolina                         SOLOMON P. ORTIZ, Texas
MARK E. SOUDER, Indiana              FRANK PALLONE, Jr., New Jersey
ROBIN HAYES, North Carolina          CARLOS A. ROMERO-BARCELO, Puerto 
MIKE SIMPSON, Idaho                      Rico
                                     ADAM SMITH, Washington
                    Harry Burroughs, Staff Director
                     Dave Whaley, Legislative Staff
               Jean Flemma, Democratic Legislative Staff



                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held February 11, 1999...................................     1

Statement of Members:
    Faleomavaega, Hon. Eni, a Delegate in Congress from the 
      Territory of American Samoa, prepared statement of.........    15
    Pallone, Jr., Hon. Frank, a Representative in Congress from 
      the State of New Jersey, prepared statement of.............    15
    Saxton, Hon. Jim, a Representative in Congress from the State 
      of New Jersey, prepared statement of.......................     2
    Young, Hon. Don, a Representative in Congress from the State 
      of Alaska, prepared statement of...........................     2

Statement of Witnesses:
    Beard, Daniel, Senior Vice President for Public Policy, 
      National Audubon Society...................................    24
        Prepared statement of....................................    41
    McDowell, Robert, Director, Division of Fish, Game and 
      Wildlife, New Jersey Department of Environmental Protection    20
        Prepared statement of....................................    37
    Reininger, Ken, Curator of Birds, North Carolina Zoological 
      Park.......................................................    22
        Prepared statement of....................................    40
    Rogers, John, Deputy Director, U.S. Fish and Wildlife 
      Service, Department of the Interior........................    16
        Prepared statement of....................................    36
    Stangel, Peter, Ph.D., Director of Neotropical Migratory Bird 
      Conservation Initiative, National Fish and Wildlife 
      Foundation.................................................    25
        Prepared statement of....................................    49
    Williams, Christopher E., Director of U.S. Species 
      Conservation, World Wildlife Fund..........................    28
        Prepared statement of....................................    43
    Winegrad, Gerald, Vice President for Policy, American Bird 
      Conservancy................................................    29
        Prepared statement of....................................    45

Additional material supplied:
    Text of H.R. 39..............................................     4



    HEARING ON H.R. 39, TO REQUIRE THE SECRETARY OF THE INTERIOR TO 
   ESTABLISH A PROGRAM TO PROVIDE ASSISTANCE IN THE CONSERVATION OF 
                      NEOTROPICAL MIGRATORY BIRDS

                              ----------                              


                      THURSDAY, FEBRUARY 11, 1999

              House of Representatives,    
        Subcommittee on Fisheries Conservation,    
                               Wildlife and Oceans,
                                    Committee on Resources,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 10:07 a.m., in 
Room 1334, Longworth House Office Building, Hon. Jim Saxton 
presiding.
    Mr. Saxton. Good morning. The Subcommittee on Fisheries 
Conservation, Wildlife and Oceans will come to order.
    Good morning and welcome to the first hearing of the 
Subcommittee on Fisheries Conservation, Wildlife and Oceans in 
the 106th Congress. The Subcommittee has been very productive 
in the past four years, having held 82 hearings, 22 markups, 
and 60 bills have become public law. That is due largely to the 
hard work of our members in shaping legislation within our 
purview, as well as to our staff.
    I have an equally ambitious agenda for this year, and so we 
will move on to today's hearing, H.R. 39, the Neotropical 
Migratory Bird Conservation Act of 1999, which was introduced 
on January 6, 1999, by Resources full Committee Chairman, Don 
Young, and Ranking Member, George Miller and, of course, by me.
    This bill is modeled after the highly successful efforts to 
assist African and Asian elephants, rhinoceroses and tigers. 
Under the terms of this measure, Congress would create a 
Neotropical Migratory Bird Conservation Account. The account 
would be a separate entity within the Multinational Species 
Conservation Fund, which is a mechanism now used to finance 
projects to assist the four previously mentioned keystone 
species. This account would be authorized to receive up to $8 
million per year in Federal appropriations until September 30th 
in the year 2004.
    The Secretary of the Interior will be charged with the 
responsibility of evaluating and selecting meritorious 
conservation projects. H.R. 39 is simple. It is a 
straightforward, bipartisan proposal that builds upon the 
success of existing conservation programs. The fundamental goal 
of this legislation is to help formulate an effective 
international plan to assist the conservation of these 
important neotropical migratory birds.
    I look forward to hearing from our witnesses this morning.
    [The prepared statement of Mr. Saxton follows:]

 Statement of Hon. Hon. Jim Saxton, a Representative in Congress from 
                        the State of New Jersey

    Good morning and welcome to the first hearing of the 
Subcommittee on Fisheries Conservation, Wildlife and Oceans in 
the 106th Congress. We have a number of new Members on the 
Subcommittee this year and I look forward to working with each 
of you to add to what I believe is an impressive list of 
accomplishments. This Subcommittee has been very productive in 
the past four years, having held eighty-two hearings, twenty-
two markups, and sixty bills have become public law. That's due 
largely to the hard work of our Members in shaping legislation 
within our purview, and I thank those of you who have played a 
part in these accomplishments. We have an equally ambitious 
agenda for this year, so let's move on to the subject of 
today's hearing--H.R. 39, the Neotropical Migratory Bird 
Conservation Act of 1999, which was introduced on January 6, 
1999, by Resources Full Committee Chairman Don Young, Ranking 
Democratic Member George Miller and me.
    This bill is modeled after the highly successful efforts to 
assist African and Asian elephants, rhinoceroses, and tigers. 
Under the terms of this measure, Congress would create a 
Neotropical Migratory Bird Conservation Account. This account 
would be a separate entity within the Multinational Species 
Conservation Fund, which is the mechanism now used to finance 
projects to assist the four previously mentioned keystone 
species. This account would be authorized to receive up to $8 
million per year in Federal appropriations until September 30, 
2004.
    The Secretary of the Interior would be charged with the 
responsibility for evaluating and selecting meritorious 
conservation projects. While the bill does not exclude any 
group or individual from applying for a Federal grant, H.R. 39 
does give preference to projects supported by relevant wildlife 
management authorities. In addition, the bill limits the 
Federal share of the costs of the project to not greater than 
33 percent of the total expenditures.
    Finally, the proposal requires the Secretary of the 
Interior to submit a report to Congress, not later than October 
1, 2002, on the effectiveness of the Act and to suggest ways to 
improve the operation of the account in the future.
    While the legislation does not limit the type of 
conservation projects, based on the history of the various 
conservation Funds, the Department is likely to receive 
proposals to determine the condition of neotropical migratory 
bird habitat, undertake population studies, implement new 
conservation plans in range states, educate the public as to 
the value of these species, and reduce the destruction of 
essential habitat.
    H.R. 39 is a simple, straightforward bipartisan proposal 
that builds upon the success of existing conservation programs. 
The fundamental goal of this legislation is to help formulate 
an effective international plan to assist in the conservation 
of these important neotropical migratory birds.
    I am looking forward to hearing from our distinguished 
witnesses. Welcome.

    [The prepared statement of Mr. Young follows:]

  Statement of Hon. Don Young, a Representative in Congress from the 
                            State of Alaska

    Mr. Chairman, I want to compliment you for scheduling this 
timely hearing on our bill, H.R. 39, the Neotropical Migratory 
Bird Conservation Act.
    Neotropical migrants are birds that travel across 
international borders and depend upon thousands of miles of 
suitable habitat. Each autumn some 5 billion birds from 500 
species migrate between their breeding grounds in North America 
and their tropical homes in the Caribbean and Latin America.
    Birdwatching is one of America's fastest growing forms of 
outdoor recreation. Nearly 70 million Americans enjoy watching 
and feeding birds. These activities generate some $20 billion 
in economic activity each year. In addition, healthy bird 
populations are a valuable asset for both farmers and timber 
interests. They consume detrimental insects and rodents, help 
to pollinate and disperse agricultural seeds, and literally 
prevent the loss of millions of dollars.
    Regrettably, the population of many neotropical migratory 
bird species has declined to dangerously low levels. In fact, 
there are currently 90 North American bird species that are 
listed as either threatened or endangered. Furthermore, the 
Gov-

ernment of Mexico has identified some 390 bird species as being 
endangered, threatened, vulnerable or rare.
    There are many reasons for this population collapse 
including nest predation, competition among species, hazards 
along migration routes, pesticide use, and loss of essential 
habitat.
    What is lacking, however, is a strategic international plan 
for bird conservation, money for on-the-ground projects, public 
awareness, and any real cooperation between those countries 
where these birds live.
    While H.R. 39 will not solve all the problems facing 
neotropical migratory birds, it is a positive step. Under this 
bill, we would create a Neotropical Migratory Bird Conservation 
Account. This account would be used to finance worthwhile 
conservation projects approved by the Secretary of the 
Interior.
    Under the terms of H.R. 39, we would authorize up to $8 
million in Federal appropriations each year. The bill does not 
exclude any group or individual from applying for a Federal 
grant. It does, however, limit the Federal share of any one 
project to not more than 33 percent of the total cost.
    This legislation is modeled after our successful efforts to 
assist African and Asian elephants, rhinos, and tigers. It is 
my hope that we will add neotropical migratory birds to that 
list of keystone species and that we can persuade our 
colleagues on the Appropriations Committee to allocate a 
sufficient amount of financial support.
    Again, I am pleased that we are moving this legislation 
forward. I am confident that the Neotropical Migratory Bird 
Conservation Account would provide much-needed support for 
projects to conserve these species in a cost-effective manner.
    I look forward to hearing from our distinguished witnesses 
and I am anxious to obtain their input on this important 
conservation legislation.

    [The text of the bill follows:]
    [GRAPHIC] [TIFF OMITTED] T5004.001
    
    [GRAPHIC] [TIFF OMITTED] T5004.002
    
    [GRAPHIC] [TIFF OMITTED] T5004.003
    
    [GRAPHIC] [TIFF OMITTED] T5004.004
    
    [GRAPHIC] [TIFF OMITTED] T5004.005
    
    [GRAPHIC] [TIFF OMITTED] T5004.006
    
    [GRAPHIC] [TIFF OMITTED] T5004.007
    
    [GRAPHIC] [TIFF OMITTED] T5004.008
    
    [GRAPHIC] [TIFF OMITTED] T5004.009
    
    [GRAPHIC] [TIFF OMITTED] T5004.010
    
    [GRAPHIC] [TIFF OMITTED] T5004.011
    
    Mr. Saxton. The Ranking Member, the gentleman from American 
Samoa, may be here a little bit later, but he does have an 
opening statement which will be included in the record at this 
point.
    [The prepared statement of Mr. Faleomavaega follows:]

  Statement of Hon. Eni Faleomavaega, a Delegate in Congress from the 
                      Territory of American Samoa

    Mr. Chairman, I support H.R. 39, the Neotropical Migratory 
Bird Conservation Act, and I applaud the gentleman from 
Alaska's efforts to address an issue that has been ignored for 
too long.
    Every year, billions of birds of some 350 species migrate 
thousands of miles between breeding grounds in North America 
and winter habitat in the tropics of Latin America and the 
Caribbean. The migratory lifestyle of these species makes them 
vulnerable to habitat destruction throughout their entire 
range, including stopover points along the migration routes. 
Scientists assert that populations of many species of migrant 
birds have declined precipitously over the last several decades 
for a variety of reasons, primarily from habitat loss and 
fragmentation, but also as a result of invasive species, 
pesticides, nest parasitism, and deliberate poisonings. For 
many neotropical birds, abundance trends are unknown or poorly 
understood.
    This Act authorizes the Secretary of the Interior to 
provide funding for projects that conserve neotropical migrants 
and to promote partnerships that improve cooperation among the 
wide number of agencies and organizations involved with ongoing 
conservation efforts. This Act is not intended to supplant 
efforts initiated by organizations such as the National Fish 
and Wildlife Foundation, but rather to complement them. This 
legislation is good public policy: It will save time and money, 
as well as preserve biodiversity, by protecting bird 
populations before they have declined to the verge of 
extinction and more drastic measures are required.

    Mr. Saxton. I ask unanimous consent that all members be 
permitted to include their opening statements in the record.
    [The prepared statement of Mr. Pallone follows:]

Statement of Hon. Frank Pallone, Jr. a Representative in Congress from 
                        the State of New Jersey

    Mr. Chairman, thank you for holding this hearing on H.R. 
39, the Neotropical Migratory Bird Conservation Act of 1999. 
This bill would require the Secretary of the Interior to create 
a conservation program for neotropical migratory birds.
    As you know, neotropical migratory birds travel thousands 
of miles every year from regions as far North as Canada, to as 
far South as Central and South America. There are 90 North 
American bird species listed as endangered under the Endangered 
Species Act, some of which are neotropical migratory birds. In 
addition, the U.S. Fish and Wildlife Service has unfortunately 
placed many neotropical migratory birds on the Migratory 
Nongame Birds of Management Concern list.
    The neotropical migratory bird species on these lists are 
either threatened, or endangered, due in part to the continuing 
deterioration of essential habitat, especially in the Caribbean 
and Latin America. The loss of these essential habitats will 
continue unless Congress implements an effective conservation 
measure directed at protecting neotropical migratory birds.
    I feel that conservation of neotropical migratory birds is 
an important priority to consider. Activites such as 
birdwatching and birdfeeding can generate nearly $20 billion in 
revenue each year in the U.S. The agricultural and 
environmental benefits of neotropical migration are essential 
to survival of certain plants and animals. A cost effective 
measure would be to prevent the decline of these species before 
they need to be listed under the Endangered Species Act.
    H.R. 39 would authorize $8 million per year through Fiscal 
Year 2004 for neotropical migratory bird conservation programs. 
Given the severity of the situation with neotropical migratory 
birds, I am interested to know how much of a difference $8 
million per year will contribute to conservation efforts, and 
whether any Federal support has already been provided to these 
particular species that are regarded as threatened or 
endangered.
    I applaud the good intent behind H.R. 39, and I am 
interested to hear from the panel about what improvements can 
be made with the bill in order to better protect these birds. 
Does the panel support the idea of an advisory committee to 
assist the Secretary of Interior with this conservation effort?
    I think these are questions that should be answered and 
areas that should be further explored, and I look forward to 
hearing from our witnesses today on the issues related to the 
legislation before us.

    Mr. Saxton. I would now like to open the hearing with our 
first witness, who happens to be an old friend, Mr. John 
Rogers, Deputy Director of Fish and Wildlife, U.S. Fish and 
Wildlife Service.
    I would just like to remind our witnesses that our oral 
testimony is limited to five minutes, and we have that nasty 
red light that comes on there in front of you. So if you would 
just pay mind to it.
    Mr. Rogers, you may begin your leisure.

   STATEMENT OF JOHN ROGERS, DEPUTY DIRECTOR, U.S. FISH AND 
          WILDLIFE SERVICE, DEPARTMENT OF THE INTERIOR

    Mr. Rogers. Thank you very much, Mr. Chairman. It is a 
pleasure to be here before you this morning to comment on H.R. 
39. I think, significant to the importance that this Committee 
places on the bill, that it does serve as the inaugural event 
for your efforts in the 106th.
    The Neotropical Migratory Bird Conservation Act will aid in 
the conservation and management of neotropical birds. The 
administration supports this legislation. The bill provides a 
mechanism for coordination and funding to promote the 
conservation of neotropical migratory birds and their habitats 
throughout Latin America, the Caribbean and North America.
    We acknowledge, also, that other House members have 
introduced a separate bill, and the Senate has its own version 
of this legislation which we could support.
    We will be happy to work with the Subcommittee, other House 
members, as well as the Senate to resolve any differences among 
the bills and to ensure that the final legislation serves the 
needs of neotropical migratory birds.
    At the outset, Mr. Chairman, we would like to support you, 
as well as Chairman Young and Ranking Member Miller, of the 
full Committee for co-sponsoring this important legislation.
    H.R. 39 establishes a grants program to provide financial 
assistance to Federal, State, local, as well as Latin American 
and Caribbean government agencies, along with nonprofit and 
international organizations, as well as others, to fund 
projects for the conservation of neotropical migratory birds. 
The legislation recognizes the need for international 
cooperation in these conservation efforts and establishes a 
project selection process to ensure that they focus on long-
term sustainability of local efforts.
    The bill establishes a Neotropical Migratory Bird 
Conservation Account within the Multinational Species 
Conservation Fund and limits the Federal cost-share of the 
projects to 33 percent, thus, leveraging the Federal funds 
provided. We are pleased with the flexibility that this 
legislation provides and with the increase in authorization to 
$8 million per year to enable the Service to increase the size 
and scope of the program over the next four years.
    The Service, through four bilateral treaties, has 
responsibility for maintaining healthy populations of some 778 
species of migratory nongame birds and 58 species of migratory 
game birds. Approxi-

mately, 350 of these species, the so-called neotropical 
migrants, migrate between the Caribbean, Latin America and 
North America.
    Unfortunately, despite our best efforts, many of these 
birds continue to decline, some quite markedly. For example, 
124 species of migratory birds are currently on the Service's 
list of migratory nongame birds of management concern. If 
population trends of these birds continue on their present 
downward slope, the next list these species may appear on will 
be the endangered species list. That list currently contains 90 
species of North American birds, and Mexico presently lists 
some 390 species as endangered, threatened or rare.
    Birds are important to us for many reasons, whether we 
reside in North America, Latin America or the Caribbean. Bird 
watching and other forms of bird-related recreation are highly 
valued pastimes in North America, with a growing interest in 
the Caribbean and Latin America as well. Nearly 70 million 
Americans spend approximately $20 billion each year 
participating in bird-related recreation. Bird watching is 
America's fastest growing form of major outdoor recreation.
    Additionally, birds prevent billions of dollars of economic 
losses each year by eating crop-damaging insect pests and weed 
seeds. They are important pollinators of many commercially 
valuable plants. Neotropical birds are an important shared 
component of the biological diversity of the Western 
Hemisphere.
    Neotropical birds spend approximately five months of the 
year in the Caribbean and Latin America, four months in their 
North American breeding sites, and another three months 
migrating in the fall and autumn between the two. The nature of 
this shared trust makes migratory bird management an 
international issue.
    Our most immediate challenge is to halt the precipitous 
declines of many of these species due, in major part, to 
habitat destruction and degradation. H.R. 39 is a major step in 
the right direction, in that it will reverse these trends. 
Severely declining bird species are causing great concerns 
among natural resource managers, both in the public and private 
sectors of Caribbean and Latin American countries, as well as 
in North America.
    H.R. 39 will help the U.S. and our international partners 
reverse species declines, conserving bird populations before 
they reach the point of endangerment. Equally as important, 
this legislation will help keep our common birds common. This 
visionary Act will help unite all of the Americas in a 
coordinated effort to protect a vital component of our shared 
biological heritage.
    Mr. Chairman, that concludes my comments right now. I would 
be happy to answer any questions that you may have.
    [The prepared statement of Mr. Rogers may be found at the 
end of the hearing.]
    Mr. Saxton. Thank you, Mr. Rogers.
    Can you enlighten us on what Federal efforts are currently 
underway to carry out the same general objectives as this 
proposed legislation.
    Mr. Rogers. Our budget contains approximately $2.5 million, 
for which we look after the problems of neotropical birds. Much 
of this has been spent, in our international efforts, has been 
spent in capacity building; that is, training of biologists, 
development of ecotourism efforts in Latin America. We have not 
had the resources to invest in the kind of habitat-related work 
in Latin America, outside of this country, that we have been 
able to. We have, however, had some limited activity, directly 
through the Fish and Wildlife Service, on our National Wildlife 
Refuges, et cetera, to manage habitat that would benefit these 
birds.
    Mr. Saxton. Well, there is, as a matter of fact, a fairly 
significant effort, is there not, through the Fish and Wildlife 
Service, particularly in our refuges, to protect habitat and 
protect species?
    Mr. Rogers. Correct. The mission of the National Wildlife 
Refuge System is, among other things, to restore and maintain 
habitat for the variety of wildlife.
    One of the unfortunate things about the ability of the 
National Wildlife Refuge System to unilaterally deal with some 
of these issues is that many of these species are dependent on 
large, undivided, unfragmented blocks of habitat that are much 
larger than our National Wildlife Refuges can protect 
unilaterally right now.
    Mr. Saxton. We have had some success in New Jersey with 
regard to the piping plover, in terms of protecting its habitat 
and in terms, as well, of watching the nesting pairs numbers 
grow, and I am wondering if you can point to other success 
stories such as that.
    Mr. Rogers. Well, all of our efforts on trying to increase 
endangered species, in general, such as they are birds, have 
met with similar successes. The peregrine falcon, for example, 
is a neotropical migrant that, through intense effort over the 
last many years, has produced benefits to the point where we 
are proposing delisting.
    One of the other issues that we have, by asking and 
responding to that kind of question, we are talking about 
individual species. What we need to be worried about and what 
this bill will help us do is to worry about larger blocks of 
habitat that will take care of the needs of multiple species 
with single actions as opposed to the kind of historic 
excruciating and labored species-by-species activity.
    Mr. Saxton. Will this authorization, which amounts to $8 
million per year, make a real difference in terms of 
conservation of our target species?
    Mr. Rogers. Mr. Chairman, I suppose, as a good government 
witness and meeting the conventional wisdom, I am supposed to 
say that, no, there is not enough money. We need a lot more. 
But, in fact, an authorization of $8 million will give us the 
opportunity, over the next few years, to demonstrate the 
utility of the program and the sorts of benefits that can 
accrue to neotropical migrants through it. And then, if 
justified, at the end of the current authorization, we might 
explore further appropriations. But $8 million should be 
sufficient.
    Mr. Saxton. Let me ask you this: It seems to me that many 
of the species that we are interested in, particularly those 
which we protect here, try to protect here, suffer because of 
conflicts between human beings and species. I am wondering if 
there might be an opportunity to use some of these monies to 
bring awareness of these conflicts and to try and provide some 
level of awareness, education to people who, for example, I 
have a lot of surf fishermen who think we are being pretty mean 
to them because we won't let them fish in certain areas during 
certain times of the year because the plovers are there. And 
yet, there seems to be a lack of understanding as to why these 
types of actions are necessary.
    Mr. Rogers. You are exactly right, Mr. Chairman. Habitat 
work, we believe, should be the emphasis of this. But quietly 
going on about doing our business with partners of saving big 
chunks of habitat, or trying to, and doing that alone, is not 
going to be successful. The public has got to understand why 
birds are important, that birds are important and need to join 
with us in both understanding it and doing something about it. 
So education and public outreach are going to be an important 
part of that.
    Mr. Saxton. Thank you. Let me ask one final question for 
the record. Is there a need to stipulate in statutory language 
that the Secretary of Interior may convene an advisory 
committee to assist him in the conservation of neotropical 
migratory birds and, if so, why?
    Mr. Rogers. We think it is very important to involve the 
conservation community in this effort broadly and that an 
advisory committee, laid out in the legislation, would be very 
helpful to us in that regard. We would hope that, if the 
Committee decides that the advisory committee is the 
appropriate way to go, it would also provide us the appropriate 
regulatory flexibility so we could do it quickly with a minimum 
of administrative burden.
    Mr. Saxton. So you would favor some statutory language?
    Mr. Rogers. Yes, sir.
    Mr. Saxton. Thank you very much. We appreciate you being 
with us this morning, and we look forward to working with you 
in the days ahead on this legislation.
    Mr. Rogers. Thank you very much, Mr. Chairman. As always, 
it has been a pleasure.
    Mr. Saxton. Thank you.
    I will now introduce our second panel. We have Mr. Robert 
McDowell, Director of Fish, Game and Wildlife at the New Jersey 
Department of Environmental Protection, someone whom I know 
very well. We fish together, almost hunted together this year, 
but didn't quite make it.
    Mr. McDowell. Almost drowned together.
    Mr. Saxton. Almost got hit by lightening together and 
almost sunk the boat; that is right.
    [Laughter.]
    Mr. Saxton. Welcome. Glad we are both here, by the way.
    [Laughter.]
    Mr. McDowell. Yes, so am I.
    Mr. Saxton. In addition, Dr. Daniel Beard, the Senior Vice 
President of the National Audubon Society; Dr. Peter Stangel, 
the Director of Neotropical Migratory Birds at the National 
Fish and Wildlife Foundation; Mr. Christopher Williams, the 
Director of the U.S. Species Conservation at the World Wildlife 
Fund; Mr. Ken Reininger, the Curator of Birds at the North 
Carolina Zoological Park; and Mr. Gerald Winegrad, the Vice 
President for Policy of the American Bird Conservancy.
    I just want to welcome you. And please, if you will, take 
note of the lights in front of you, inasmuch as there are 
several witnesses, all of whose testimony is very important, 
and we will begin with Mr. McDowell.

STATEMENT OF ROBERT McDOWELL, DIRECTOR, DIVISION OF FISH, GAME 
AND WILDLIFE, NEW JERSEY DEPARTMENT OF ENVIRONMENTAL PROTECTION

    Mr. McDowell. Thank you very much, Congressman Saxton, for 
this opportunity. I am here representing the International 
Association of Fish and Wildlife Agencies, and I appreciate 
this opportunity to comment on H.R. 39.
    The Association supports strongly H.R. 39, and it is a good 
start to address the conservation needs of this important group 
of migratory birds, especially in Latin America and the 
Caribbean. But I will also point out the unfulfilled 
conservation needs for those species, these species in the 
United States and our domestic programs to address those needs.
    All 50 State Fish and Wildlife Agencies are a member of 
this Association. As you are aware, the Association has long 
played an active role in migratory bird conservation, from 
1916, with the Migratory Bird Treaty, and the passage of the 
Migratory Bird Treaty Act in 1918, to the North American 
Wetlands Conservation Act.
    The Association has also given the highest priority of 
securing necessary funding to enable our State Fish and 
Wildlife Agencies to address the conservation needs of the so-
called nongame species, such as neotropical migratory birds, 
and their habitats before they reach a point where we have to 
apply the Endangered Species Act. We hope we will be able to 
fulfill those objectives with the passage of the Conservation 
and Reinvestment Act from Chairman Young and Congressman 
Dingell in Congress.
    Most of our member State Fish and Wildlife Agencies 
participating in the North American Waterfowl Management Plan 
are currently sending matching funds, to both Canada and 
Mexico, to facilitate the conservation objectives of this plan. 
Our agencies in the border States of California, Arizona, New 
Mexico and Texas are already engaged in conservation efforts in 
Mexico and other Latin American countries to restore indigenous 
fauna. We anticipate that our State Fish and Wildlife Agencies 
would likewise participate in a matching fund protocol for H.R. 
39 and this established fund for the migratory bird species in 
Latin America and the Caribbean. So it is a good first step.
    The Association recognizes that effective conservation of 
the 800-plus species of birds that occurred in the United 
States during some part of their life cycle requires 
cooperative efforts of conservationists at international, 
national, regional, state and local geographic levels. The 
Association has recently created an ad hoc committee on 
migratory bird funding to make progress in the effort to 
improve our abilities to effectively conserve these birds.
    Let me relate to you a few examples of demonstrating that, 
in order to successfully secure the conservation in these 
neotropical migrants, we need to address their life needs and 
the habitat requirements in both the United States, which 
encompasses mostly the breeding range, stopover habitats, where 
they stop on their way to the Arctic, in the cases of some 
species, to nest, and the southern terminus of their migration, 
which is their winter range in South America and the Caribbean.
    The Cerulean Warbler is a neotropical migratory bird that 
breeds across the United States and winters in Northern South 
America, mostly to the east of the Andes Mountains. The North 
American Breeding Bird Survey indicates this species declined 
significantly between 3.5 and 4 percent each year for the past 
30 years in the breeding grounds in the United States, 
primarily as a result of the loss and fragmentation of 
bottomland hardwood forest during the nonbreeding season. The 
species is known to frequent coffee farms in Latin America 
where it forages in the mid-story and the canopy vegetation 
that provides cover and shade for growing coffee plants. 
However, much of that acreage is being converted into sun-
tolerant varieties of coffee. Sun-tolerant coffee plantations 
do not provide the kind of habitat needed for over-wintering 
warblers.
    On the West Coast of the continent, the Alaska shorebird 
working group is developing a statewide comprehensive 
monitoring program. Since nearly the entire world population of 
Western Sandpipers breeds in Alaska, monitoring of population 
numbers and productivity is very important.
    There are many, many of these examples. In our own State of 
New Jersey, we are the spring stopover for shorebirds in 
Delaware Bay, one of the top three in the world, and includes 
over 15 species, some making round-trip flights over 20,000 
miles. Both fall and spring migrants gain weight while stopping 
over and can be crucial to the success of their migration. 
Shorebirds double their body weight. Cape May Peninsula and 
Delaware Bay is one of the most used ecotourism designations--
desti--people come there--in the country.
    [Laughter.]
    Mr. McDowell. An estimated $30 million in the fall, an 
estimated $5- to $10 million in the spring are spent each year 
by people visiting the area to see birds.
    A major portion of world population lives in that area. 
Nearly 15 percent of the people living in the United States 
live within a three-hour drive of this area. It adds to a 
tremendous amount of pressure on the area. If we are not able 
to work with local landowners, provide habitat in the area, 
have projects that deal with conserving this area and 
conserving the habitat in that area, we are not going to be 
able to keep this thing going in the State of New Jersey.
    I have submitted written testimony to this effect in far 
more detail, and I appreciate the opportunity to talk to you 
today.
    [The prepared statement of Mr. McDowell may be found at the 
end of the hearing.]
    Mr. Saxton. Thank you very much, Mr. McDowell.
    We are going to deviate from our regular order now. At this 
point, I would like to introduce the gentleman from North 
Carolina, my friend, Mr. Coble.
    Mr. Coble. Thank you, Mr. Chairman. I appreciate that.
    Ken, my good friend, Jimmy Saxton, and I continue to try to 
``outbrag'' each other concerning our respective districts. So 
I want to do a little boasting, if I may, Mr. Chairman.
    Ken Reininger is here to testify in support of H.R. 39, and 
he is a Curator of Birds for the North Carolina Zoological Park 
in Asheboro. Mr. Chairman, I would like to extend an invitation 
to you and to the gentleman from the Eastern Shore, as well as 
all other members of your Committee to come to Carolina because 
this is one of two state-owned and operated zoos in the 
country, and I think we are second to none.
    Ken has a total of 24 years' experience as an agriculturist 
and an avian collection manager in public zoological park 
setting, including six years as the Bird Curator at the North 
Carolina Zoo. He came to our zoo from the Burnette Park Zoo in 
Syracuse and earned his B.S. in Multiple Science from Le Moyne 
College in Syracuse, New York. And, Ken, I apologize for my 
belated arrival. I have got to go to another meeting probably 
before you finish.
    But, Mr. Chairman, I thank you for letting me present Ken 
to you.
    Mr. Saxton. Mr. Reininger, we are pleased that you are here 
today. And if all of those nice things that Mr. Coble said, 
obviously, inasmuch as he said them, they must be true----
    [Laughter.]
    Mr. Saxton. And so why don't you proceed at this time, sir.

KEN REININGER, CURATOR OF BIRDS, NORTH CAROLINA ZOOLOGICAL PARK

    Mr. Reininger. Thank you, Mr. Coble and Mr. Chairman. Thank 
you for the opportunity to testify in support of H.R. 39, the 
Neotropical Migratory Bird Conservation Act. My name is Ken 
Reininger. I am Curator of Birds at the North Carolina 
Zoological Park in Asheboro. The North Carolina Zoo is an 
accredited member of the American Zoo and Aquarium Association. 
It has been since 1974. The AZA represents 183 accredited zoos, 
aquariums, oceanariums and wild animal parks in North America, 
as well as most of its professional employees.
    As Mr. Coble said, I have a number of years' experience as 
an avian collection manager in a public zoo setting. I have 
also had the pleasure of participating in a number of bird 
recovery programs, including those for the Hawaiian Nene Goose, 
the South African wattled crane and the Indonesian Bali mynah. 
I have worked on field programs from North Carolina to South 
Africa and other points around the world and also serve on 
several AZA scientific advisory committees.
    Mr. Chairman, I would like to take this opportunity to 
thank you, Congressman Miller and Chairman Young of 
reintroducing H.R. 39 and for conducting this hearing so early 
in the session. I also thank the Chairman for making some of 
the recommended changes offered by the administration in 1998.
    As you are well aware, one of the greatest threats to many 
species is habitat loss and degradation. One of the more 
successful practices to reduce these pressures has been to 
encourage habitat conservation in the form of public-private 
partnerships, such as those mentioned earlier; the African and 
Asian Elephant, Rhino and Tiger Conservation Acts. I believe 
H.R. 39 will continue this relatively new formula of success 
and, at the same time, complement existing conservation 
programs and initiatives, such as Partners in Flight and the 
North American Waterfowl Management Plan.
    Although migratory birds are protected by the Migratory 
Treaty Act and the United States is party to four other 
bilateral treaties, as has been mentioned previously, a number 
of migratory songbird species continue to face increasing 
challenges throughout North America. These species face 
challenges from forest fragmentation, a loss of habitat on 
wintering areas and the loss of habitat at key migration 
stopover sites.
    I know from personal experience the importance of these key 
areas, such as the Outer Banks of North Carolina, to birds 
making the long migratory journey. Moreover, as previously 
stated, over 90 North American bird species are listed as 
endangered and threatened under the ESA, while another 124 are 
currently are on the list of Migratory Nongame Birds of 
Management Concern. Mexico lists some 390 bird species as 
vulnerable or endangered. So much more needs to be done.
    There needs to be a commitment from many at both ends of 
the migratory route, from the wintering grounds in more 
tropical regions, to the cooler northern breeding habitats and 
all of the critical habitat in between to conserve these 
species. Preserving habitat for neotropical migratory birds is 
truly a team effort. We cannot allow continued fragmentation of 
habitat to occur.
    I know and understand the importance of community 
involvement and the value of partnerships and educational 
outreach for a wildlife conservation program to be successful. 
Whether it is balancing the needs of bald eagles with logging 
interests, land developers and power companies, as I had the 
pleasure to participate in, in the Yadkin PeeDee Lakes region 
of Central North Carolina, or involving South African trout 
farmers in wetlands and wattled crane preservation, I have 
learned the value of ensuring that all stakeholders are brought 
into the problem-solving process.
    I believe H.R. 39 is a step in that direction. The 
legislation and its subsequent fund create a cooperative 
atmosphere and the foundation for a win-win situation for 
neotropical migratory birds and their important migratory 
habitat, also for our international partners in conservation 
and the millions of Americans who spend an increasing amount of 
time bird-watching and on other bird-related activities.
    H.R. 39 continues the innovative cost-sharing formulas from 
early conservation measures, utilizing both Federal and non-
Federal support. Most of all, by establishing the Neotropical 
Migratory Bird Conservation Fund, the United States elevates 
the importance of protecting critical migratory bird habitat in 
Latin America, and the Caribbean and throughout the Americas. 
Moreover, from a biological perspective, H.R. 39 will help to 
ensure that the ecosystems which neotropical birds and humans 
depend on, are managed in a more sustainable way.
    In conclusion, H.R. 39 represents the best in conservation 
legislation--a targeted strategy to protect critical habitat 
and biodiversity, a proven formula to foster public-private 
partnerships through a competitive grant process and a program 
that complements existing national and international programs.
    As John Rogers stated last year in his testimony before the 
Senate Committee on Environment and Public Works, ``The nature 
of this `shared trust' resource makes migratory bird management 
a true international challenge.''
    Mr. Chairman, thank you for the opportunity to appear 
before you today. I would be happy to answer any questions you 
might have.
    [The prepared statement of Mr. Reininger may be found at 
the end of the hearing.]
    Mr. Saxton. Thank you, Mr. Reininger, very much.
    The National Audubon Society is most ably represented today 
by Mr. Dan Beard.

  STATEMENT OF DANIEL BEARD, SENIOR VICE PRESIDENT FOR PUBLIC 
                POLICY, NATIONAL AUDUBON SOCIETY

    Mr. Beard. Thank you, Mr. Chairman. I am pleased to appear 
before you today on behalf of the one million members and 
supporters of the National Audubon Society throughout the 
Americas, in strong support of H.R. 39.
    This legislation, plus H.R. 381, introduced by Congressman 
Jim Greenwood, are major steps forward in our efforts to 
protect and enhance bird habitat in Latin America and the 
Caribbean. I want to compliment Chairman Young, Mr. Greenwood, 
yourself, and Mr. Miller for introducing these bills and giving 
this matter the important attention it deserves.
    I would like to express our wholehearted support for the 
Neotropical Migratory Bird Conservation Act. This bill 
addresses the important needs of protecting and enhancing 
populations of neotropical birds, using effective and, we 
think, relatively inexpensive means.
    While neotropical migratory birds are beautiful and an 
important part of our natural heritage, they have also become 
fundamental components of our local economies. According to 
surveys completed by the Fish and Wildlife Service, more than 
63 million Americans watch and feed birds, and each year more 
than 24 million Americans travel to watch birds. In 1991, the 
last year we have specific data available, bird-watchers spent 
more than $5 billion on goods and services related to these 
activities and these expenditures generated more than $600 
million in tax revenue for local, state and Federal 
governments. Nonconsumptive bird use supports almost 200,000 
American jobs.
    Many of these remarkable creatures are disappearing due to 
the loss and declining quality of habitat in the United States, 
Canada and throughout Latin America and the Caribbean. If we 
want to protect these birds, we must protect their habitat here 
in the United States as well as Latin America and the 
Caribbean.
    H.R. 39 is an efficient bill because it does not rely 
solely on the taxpayers for the funding of these programs. The 
bill would encourage leveraging Federal dollars by helping to 
build partnerships with the business community, nongovernment 
organizations and foreign governments. The flexible matching 
fund requirements of this bill will give the Department of 
Interior greater flexibility to choose the appropriate 
projects.
    I would like to offer some suggestions to the Committee, 
should the decision be made to move the bill. First, we would 
urge that the Committee substitute the purposes language 
contained in H.R. 4517, in the 105th Congress, for the language 
that is currently in H.R. 39. The language in H.R. 39, as it 
currently exists, especially in subsection (2), is overly broad 
and does not include language calling for protection of 
neotropical birds. We think that this is important.
    Second, if a decision is made to report H.R. 39, I would 
urge the Committee to consider adding language authorizing the 
establishment of a neotropical migratory bird advisory 
committee. H.R. 381 authorizes such a committee and we really 
believe that it could be an important focal point for raising 
the visibility of this issue among Federal agencies but more 
importantly, in Latin America and in the Caribbean within the 
institutions that exist there.
    Third, the bill should be amended to make it clear that a 
majority of the funds appropriated should be spent in Latin 
America and the Caribbean. Habitat in these areas is in dire 
need of restoration. Dollars spent in these areas will, in many 
cases, have greater impact because of the lower cost of land 
and labor. It would be a tragedy if we passed this bill and a 
majority of the funds were spent in the United States. We don't 
see that as the fundamental purpose of this legislation.
    Finally, as currently drafted, H.R. 39 could potentially 
allow the Secretary to make available all of the funds for 
neotropical projects to U.S Federal agencies. I would urge you 
to revise the language to ensure that a majority of the funds 
be made available to foreign governments and nongovernmental 
organizations to promote conservation projects in Central 
America and the Caribbean.
    If a bill passes and a majority of the funds are diverted 
to U.S. Federal agencies, our efforts to save neotropical birds 
will have been curtailed, and I think we will have lost a great 
opportunity.
    Mr. Chairman, again, I want to express to you our strong 
support for this legislation. We appreciate you holding this 
hearing and we look forward to working with the members of the 
Committee to move this bill forward.
    Thank you.
    [The prepared statement of Mr. Beard may be found at the 
end of the hearing.]
    Mr. Saxton. Thank you very much, Mr. Beard.
    The National Fish and Wildlife Foundation, better known 
around here as the Foundation, is represented today by Dr. 
Peter Stangel.
    You may proceed, sir.

  STATEMENT OF PETER STANGEL, Ph.D., DIRECTOR OF NEOTROPICAL 
   MIGRATORY BIRD CONSERVATION INITIATIVE, NATIONAL FISH AND 
                      WILDLIFE FOUNDATION

    Dr. Stangel. Thank you, very much. Good morning, Mr. 
Chairman, and thank you for the opportunity to appear this 
morning and express our support for this initiative. We would 
like to commend you, and Mr. Young and your colleagues for your 
leadership in this effort.
    I think this initiative is one of the most exciting 
opportunities we have had in bird conservation in recent 
history, and if the program described in this bill is fully 
developed, it will go a long way towards preventing dozens of 
species of neotropical migratory birds from ever reaching the 
endangered species list.
    As you well know, the Fish and Wildlife Service and others 
have estimated that about half of all of the neotropical 
migratory birds are declining, and if these declines are 
allowed to continue, literally dozens of species could reach 
the endangered species list, creating an environmental disaster 
the likes of which the conservation community has never 
witnessed.
    Despite this possibility, I don't think we are in a 
situation where the sky is falling. I think there is a lot of 
optimism, and I would liken the situation more to that what 
occurs when you are driving down the road and the red light on 
the dashboard of your car comes on, indicating that it is time 
for an oil change. That red light suggests that, if you make a 
small investment now and change your oil, you will save your 
engine. I think that is exactly where we are with migratory 
birds. The red light is on, and a modest investment now will 
prevent disasters further down the road.
    For the past ten years, the Foundation, the Fish and 
Wildlife Service, Audubon Society, American Bird Conservancy 
have been working cooperatively to develop a comprehensive 
strategy for neotropical migratory birds called Partners in 
Flight. We launched this effort because we felt it was critical 
that we take a hemispheric approach to conservation of 
neotropical migrants and that we take a cooperative approach. 
Quite simply, the issue is too complex for any one organization 
or agency to save migratory birds on their own, no matter how 
much money they have. The only answer is to work cooperatively. 
And after a decade of efforts on behalf of migratory birds, we 
are convinced that this is still the best approach.
    Over the past ten years, we have also had the opportunity 
to run a grant program very similar to that which you propose 
in this legislation, and we would like to offer a few 
suggestions, based on our experience, that we think will assist 
you with development of this bill.
    First of all, we urge you to make this process as 
cooperative as possible. As I said before, it is not possible 
for any one organization or agency to fix this problem on their 
own, and the only chance we have for these birds and their 
habitats is to work cooperatively. At the Foundation, we do 
this through a series of advisory committees that are informal. 
We bring together experts from Federal agencies, State 
agencies, industries and our nonprofit partners to work with us 
to identify trends in conservation, help us select projects and 
develop programs that benefit migratory birds. These advisory 
committees help us foster partnerships and leverage our Federal 
funds.
    We think it is critical that the Service establish a 
similar sort of advisory committee. It doesn't have to be a 
bureaucratic exercise. We don't pay our committee members. We 
don't fly them around the country to meetings. We simply meet 
two to three times a year to exchange ideas and build 
partnerships, and we think it would be particularly helpful if 
the Service were allowed or excused from some of the FACA 
responsibilities that might prohibit this sort of interaction.
    Second, we fully support the idea of match for the Federal 
funds in this program. Over the past ten years, the Foundation 
has awarded 470 grants to benefit migratory birds. We are 
required to have a one-to-one match for these grants. But, in 
reality, on average, we obtain better than a three-to-one match 
domestically and almost one and a half-to-one for international 
programs. We think the Service is fully capable of the same 
sort of match. This match not only leverages taxpayer dollars, 
but it also strengthens the ability of the grantees to continue 
the programs long after their grant funds are gone because they 
develop a network for obtaining funds for future projects.
    Third, we think it is very important that this Act include 
continued opportunities to bring industry into this program. 
When we launched Partners in Flight, we made sure that the 
forest products industry, and the grazing industry and other 
industries were present at the very beginning because we felt 
that the future of neotropical migratory birds was on private 
lands. Private lands dominate our landscape; 70 percent of the 
country nationwide, 90 percent here in the eastern United 
States. No matter how good our National Wildlife Refuge System 
is, unless we reach out to private landowners, our efforts will 
not be successful.
    Two years ago, we established a cooperative agreement with 
17 of the largest forest products companies to work with us in 
conservation of neotropical migratory birds. We have awarded 
over a million dollars of grants to these companies to leverage 
their considerable financial resources and to establish 
cutting-edge projects on private lands. These projects will not 
only benefit industry, but will benefit Federal agencies and 
other landowners, and we see it as critical that industry 
continue to be an important component of this program.
    And, finally, and perhaps most importantly, we would like 
to recommend that the funds from this Act be used to implement 
the conservation recommendations from Partners in Flight. For 
the past decade, hundreds and hundreds of people from Federal 
agencies, State agencies, industries and nonprofits have been 
working together to develop comprehensive plans not just for 
neotropical migratory birds, but for all birds. And these plans 
are breaking the barriers between game and nongame management, 
and they are building partnerships between agencies, and 
nonprofits and industries that we only dreamed of in the past.
    Quite simply, these are the best conservation plans for 
birds that have ever been developed, and we think it is 
essential that these funds be used to implement the 
recommendations from those plans. We don't need more funds to 
develop studies or to prioritize. That has already been done. 
And we think the most effective use of these funds would be to 
implement these programs.
    Thank you for letting us appear in support of this 
initiative, and we look forward to working with the Service and 
other partners to help conserve these species.
    [The prepared statement of Mr. Stangel may be found at the 
end of the hearing.]
    Mr. Saxton. Thank you very much, Dr. Stangel. We appreciate 
your optimism, and we believe that this legislation will go a 
long way towards carrying out the kinds of objectives that you 
have just mentioned.
    Christopher Williams, with the World Wildlife Fund, is our 
next witness.
    You may proceed, sir.

STATEMENT OF CHRISTOPHER E. WILLIAMS, DIRECTOR OF U.S. SPECIES 
               CONSERVATION, WORLD WILDLIFE FUND

    Mr. Williams. Thank you, Mr. Chairman. Thank you for the 
opportunity to come and talk to the Committee today.
    I am here on behalf of the 1.2 million members of World 
Wildlife Fund to express support for H.R. 39, the Neotropical 
Migratory Bird Conservation Act of 1999.
    Mr. Rogers and my fellow panelists have done a terrific job 
of describing the plight of migratory birds and the need for 
this legislation. So I would like to spend a few minutes 
talking about what World Wildlife Fund considers to be the 
strong points of this legislation and then make recommendations 
that we believe will make it even stronger.
    One aspect of the bill that we feel makes it a strong, 
creative, and very useful tool for conservation is that it 
encourages proactive conservation measures that go beyond 
regulation to conserve neotropical migratory birds. Regulation 
is an important tool for conserving wildlife, endangered 
species, and migratory birds and, in fact, it may be that more 
regulation is necessary to really achieve the goal of 
conserving neotropical migrants.
    However, it has become obvious, over the past 25 years of 
environmental law and regulation, that regulation is not enough 
to do the job. We must enlist private landowners, corporations, 
entities all across the spectrum in voluntary, proactive 
measures to conserve and restore wildlife habitat and 
populations. This bill, with its expansive language of who is 
eligible for funding and the types of projects that can be 
funded, goes a long way toward moving us toward those proactive 
conservation approaches.
    A second strong point of the legislation, in our view, is 
its fostering of partnerships: fostering partnerships across 
international borders, fostering partnerships between agencies, 
local communities and private landowners to conserve migratory 
bird populations and habitat.
    With that, I would like to suggest a few recommendations 
that would make the bill still stronger, in our view.
    First, we believe that the bill should be amended to 
explicitly include Canada in the program. While there is no 
language right now in the bill that explicitly eliminates or 
prohibits funds from going to Canada for the conservation of 
migratory birds, the language of the bill, as written, suggests 
that its scope be limited to the United States and Latin 
America. As we all know, there are many migratory birds that 
make the long journey from the Arctic Circle deep into South 
America during their migratory route. If we want to make this a 
truly hemispheric initiative benefiting birds, such as the 
American golden plover, the semipalmated sandpiper, or the 
American peregrine falcon, Canada should be included in the 
program.
    The second recommendation that we would make is to raise 
the ceiling that now limits the Federal cost-share to 33 
percent. I believe that cost sharing is an important tool and 
the funds from the Act should be used to leverage conservation 
resources from other sources. However, poorly funded 
conservation agencies or local communities in Latin America or 
local NGOs who are strapped for resources are going to have a 
very hard time coming up with a 67-percent match to qualify for 
funds coming from the program. So I believe that the match 
limitation should be on a sliding scale from 33 percent up to 
as much as 75 percent, again, to empower communities and 
agencies with fewer resources to be involved in the program.
    And the third recommendation that I would make is that the 
annual appropriations in the later years of the program be 
increased. We heard from Mr. Rogers that $8 million was 
adequate for our immediate purposes, and I will take him at his 
word. But in my view, during the out-years of the program, the 
appropriation should be increased as the program gets its legs 
under it and more projects could potentially come on-line.
    That is the extent of my oral comments today. I am happy to 
answer any questions you may have, and thank you for the 
opportunity for World Wildlife Fund to express our thoughts on 
this important issue.
    [The prepared statement of Mr. Williams may be found at the 
end of the hearing.]
    Mr. Saxton. Thank you very much.
    I would now like to ask the gentleman from the gorgeous 
Eastern Shore of Maryland if he would like to make an 
introduction.
    Mr. Gilchrest. Thank you, Mr. Chairman.
    Turner's Creek and the Sassafras River.
    I would like to introduce Mr. Winegrad, Gerald Winegrad, 
Delegate from the State of Maryland to the General Assembly for 
a number of years, and pretty much--I know we are calling for 
partnerships here, but partnerships require leadership, and I 
am not going to say totally singlehandedly, but Mr. Winegrad is 
responsible for just countless numbers of environmental 
policies that have proven to be very successful in preserving 
the beautiful Chesapeake Bay and habitat for a number of 
species.
    So, Jerry, it is good to have you in the Nation's capital 
this morning, and it is good to see you again. We are glad that 
you are participating in this panel this morning. I see you 
have, at least to me, anyway, it is a new job. So that is good.
    Welcome, Jerry.

   STATEMENT OF GERALD WINEGRAD, VICE PRESIDENT FOR POLICY, 
                   AMERICAN BIRD CONSERVANCY

    Mr. Winegrad. Thank you. Thank you, Mr. Chairman, and thank 
you very much, Representative Gilchrest. Mr. Gilchrest is my 
Congressman. I am proud to be one of his constituents, and his 
environmental leadership is known throughout our great State 
and throughout the United States.
    I am Gerald Winegrad. I represent the American Bird 
Conservancy. I am Vice President for Policy and, as 
Representative Gilchrest said, I am a recovering politician as 
well. I did serve in the Maryland legislature for 16 years and 
chose not to run again. So I have dedicated myself to working 
in conservation, and here I am.
    We are a nonprofit conservation group dedicated to the 
conservation of wild birds in the Americas. We operate with 
many different programs run by excellent ornithologists, 
including the National Coordinator for Partners in Flight who 
works for us. We do the Important Bird Areas program in 
conjunction with National Audubon. We have a Pesticide and 
Birds Campaign and a full-time coordinator working on 
pesticides impacts on wildlife, as well as a CATS INDOORS! 
coordinator and a collaborative partnership through a 78-member 
organization Policy Council. That includes groups such as 
National Audubon and World Wildlife Fund, present here, as well 
as groups such as the New Jersey Audubon Society, the Maryland 
Ornithological Society, Del Marva Ornithological Society and 
groups all over the country.
    We are very pleased to support H.R. 39 and hope that this 
is a beginning of a recognition by the Congress of the need for 
a comprehensive approach to resolve the very serious threats to 
migratory bird populations in this country and in nations to 
our south. These threats include habitat loss, habitat 
degradation, habitat fragmentation, pesticides and other 
contaminants, introduced exotic species, human-constructed 
barriers to migration, such as communication towers, free-
roaming domestic cats, and insufficient funding, both in this 
Nation, as well as nations to our south, and incentives to 
better manage existing habitat.
    This legislation is particularly opportune because of the 
very significant increase in people's concerns over birds. Bird 
watching is big business. You have heard the figures from 1991. 
Over $5 billion in direct expenditures related to feeding, 
watching, viewing and traveling to watch birds.
    In fact, the studies show that through the year 2050, it is 
expected to be the only outdoor recreation that actually grows 
greater than the increase in population. There are over 70 
million Americans that participate in some manner of bird 
activities.
    Having said that, the decline is significant in many of our 
neotropical migratory birds and other migratory bird species. 
You have heard the figures. There is data in my statement. But 
of serious concern to this subcommittee, this committee and the 
Congress should be the fact that, of the 800-and-some species 
in our country, 778 of which are nongame species, of these 
species, fully more than one-quarter are either listed as 
endangered or threatened under our Endangered Species Act--that 
is 90 species--and another 124 on the Migratory Nongame Birds 
of Management Concern list published by the Fish and Wildlife 
Service. There is grave concern that these species may, one 
day, be listed or are in decline or need specialized local help 
to keep them from going into decline.
    And many of those species you would recognize. They include 
species that are common to the Eastern Shore, such as the marsh 
hawk, also known as the northern harrier. That is a species of 
concern. The common loon is a species of concern, the snowy 
plover, the red-shouldered hawk, the American bittern, the 
black tern, the short-eared owl, the red-headed woodpecker that 
we see here in the East, all of these are species of concern, 
coupled with the 90 species that are on the endangered species 
list, from whooping cranes to the piping plover that you have 
mentioned, Mr. Chairman, that New Jersey shares with Maryland's 
Eastern Shore, as well as the Aleutian Canada Goose and the 
Everglade snail kite.
    We see this legislation as a beginning of a great movement 
forward of the Congress and the United States to protect and 
conserve these neotropical migratory bird species.
    We would suggest in the legislation, having as a background 
Senator Abraham's bill of last year, Senate Bill 1970, and S. 
148 this year, as well as the other iterations that went back 
and forth near the end of the last Congress, that, number one, 
that we would like to see--joining some of our colleagues--the 
funding increased for the percentage share. It would really 
help if we could go to 50 percent for U.S. projects from the 
Federal money and 50 to 75 percent, depending on the priority 
needs, as the Secretary determines, for funding south of the 
border.
    We would also suggest that there be an advisory committee 
spelled out in the legislation. The Partners in Flight program 
is excellent. The North American bird conservation plan is 
nearing completion. They should be completed this year for 51 
geophysical regions of the country, with very specific planning 
for priority species that will need to be funded. And that 
expertise has burgeoned into a Partners in Flight program in 
Canada, and now the North American Bird Conservation 
Initiative, which also involves Mexico. There were very 
successful meetings just last year in Puebla, Mexico. These 
programs are extant, need to be funded and should be recognized 
in the legislation.
    With that, we urge the Congress to pass this legislation 
expeditiously and, most importantly, to fund, in this fiscal 
year, the full $8 million or else this will be another nongame 
bill that never makes a difference because of no funding.
    [The prepared statement of Mr. Winegrad may be found at the 
end of the hearing.]
    Mr. Saxton. Well, thank you very much.
    Before I ask Mr. Gilchrest for his questions, let me just 
make note, in my opening statement, I noted that our 
Subcommittee has been very productive over the past four years; 
that we have held 82 hearings, 22 markups, and 60 of our bills 
have ended up being law.
    The road to doing that, in today's environment, can be 
bumpy at times. But we, as a Committee, have been able to move 
forward, and the members and the Chairman have been able to 
take credit, but we didn't do the hard work. We have folks in 
back of us here who have made it possible for Neil Abercrombie, 
and Jim Saxton, and Don Young, and George Miller, and Gary 
Studds to go to the floor on a bipartisan basis and do the work 
of the country, usually in the conservation sense.
    Today, I would just like to say that two of the people who 
have made this possible are soon to leave us. It is Chris Mann, 
who came to the committee as a Sea Grant Fellow in the late 
1980s and then, actually, the Merchant Marine and Fisheries 
Committee, at the time, and worked with the Merchant Marine and 
Fisheries Committee and is now in his fifth year here. We have 
had a great working relationship with Chris, and he is going 
over to the State Department, where we will continue to work 
together on conservation issues and, hopefully, continue the 
same kind of progress, only in a more far-reaching way, even, 
than we have been able to do here.
    Chris, it has been a pleasure to have you with us, and we 
look forward to continuing the great relationship, and we will 
miss you, to say the least.
    Also, soon to depart Washington, DC, is the young lady to 
my right who came to us after a short stint working as a 
staffer in the Senate, came to work on my personal staff, and 
has been making me look smart ever since, I think.
    [Laughter.]
    Mr. Saxton. And Sharon has, obviously, been with this 
Committee since the Merchant Marine and Fisheries Committee 
went away and was a staffer on the Merchant Marine and 
Fisheries Committee before that. She and her family, two kids 
and Mike, have already actually moved back to New Jersey. Mike 
is working for the Atlantic City Press, and Sharon will be 
going back. You won't see as much of her, but I will because 
she is going to be living in my district, fortunately, and I 
will miss Sharon a great deal as well.
    I just wanted to make note of these two individuals because 
they have been such a key part of the successes that we are 
able to claim, and we will miss you both here in Washington 
very much. But I am sure we will see you both in different 
capacities very often.
    So, with that, Mr. Gilchrest, if you would like to ask 
whatever questions you think are pertinent.
    Mr. Gilchrest. Thank you, Mr. Chairman.
    I don't have any real specific questions. I appreciate the 
testimony with their clear direction for recommendations, which 
I think will help continue to improve the legislation. Some of 
them, for example, cooperate with a whole range of partners, 
including the public and the private, the ag community, the 
forestry logging community, the subdivision community, the 
construction industry and so on. So I think these are all very 
helpful recommendations that we can take and, to the extent 
that it is possible, turn into law and appropriate the kind of 
funds that will be needed. Funds around Washington are becoming 
increasingly more scarce, so it does take a lot of effort on 
the part of us, the staff and all of you to make these things 
happen.
    I would like to describe a situation that I am working on 
in Maryland, if I can be parochial for a second, that will 
include a section of New Jersey, and Virginia and a piece of 
Pennsylvania, and I have talked to Frank about this--LoBiondo. 
He has Cape May, doesn't he?
    I would like to solicit some of your help in creating a 
long-term project, and which I am going to refer to as a 
habitat conservation corridor that will go from the lower 
Eastern Shore of Virginia up through the DelMarva Peninsula, 
including Delaware, a piece of Pennsylvania, and the flyway of 
New Jersey, right across the Delaware River. It has been in the 
discussion stage right now. We are going to meet with Governor 
Carper I believe the latter part of March, the first part of 
April. The Department of Natural Re-

sources in Maryland, we have had a number of discussion with 
them, Jerry. We have had some brief discussions with their 
counterpart in Delaware.
    We have not had any discussions with anybody in New Jersey. 
So it is really an opportunity, Mr. McDowell, that you are here 
today because when we set up the time frames for these 
meetings, we would really like your participation. And we stuck 
New Jersey in there, besides the fact that it is a beautiful 
state, the Garden State, because we did recognize that those 
are some of the areas where these neotropical birds migrate 
through, and it is some pretty beautiful habitat up there that 
could be preserved.
    So it is a long-range plan. It is something that will have 
to be done with conservation easements, with voluntary 
easements, with maybe open-space ag preservation purchase of 
property, environmental trusts, a whole range of people we feel 
could participate in this.
    Two other quick things, we realize that the coastal areas 
of New Jersey, Maryland and Virginia are very important to 
preserve and so are the shorelines of the Chesapeake Bay. 
Several of you mentioned the idea that the problems with 
neotropical birds is fragmentation of their habitat. What we 
want to do with this habitat conservation corridor is to make 
sure there is nothing fragmented. So if you can picture, 
perhaps, a tree and its roots, with the center trunk going up 
the middle of Del Marva, but the roots reaching out to the 
shorelines of the bay and the coastlines of the ocean, not 
fragmented. And our DNR has a number of really good maps to 
show the most prioritized areas that can be preserved.
    So this is something that it was an opportunity that you 
all came here this morning. We would like to send you the 
information as we progress. And the concept is like the 
Appalachian Trail. We know it is not going to happen in two 
years, but the Appalachian Trail and its similar counterparts 
around the country, the Long Trail in Vermont, the Sierra 
Nevadas and those things, it took a long time to actually 
connect, put together. And so this is what we are going to try 
to do here.
    Mr. Beard. Mr. Chairman, I wonder if I might be able to 
comment?
    Mr. Saxton. Please proceed.
    Mr. Beard. Mr. Gilchrest, I think this is an absolutely 
fascinating idea. The one analogy I thought of was the 
historical corridors that we have done through park 
legislation. Mr. Regula, for example, has been very supportive 
of that in his State, and we have also done a number of 
historical trails, such as the Underground Railroad 
legislation.
    The importance of what you can bring to this kind of a 
concept is a framework within which State governments, local 
governments, private nonprofit organizations and private-sector 
interests can operate within that overall framework. A 
designation as a habitat conservation corridor is an exciting 
concept because what that can do is provide the framework, the 
structure, within which the rest of us can do individual 
projects.
    It also offers us an opportunity to make some headway in 
dealing with some very difficult issues. The one that comes 
immediately to mind is horseshoe crabs. One of the difficulties 
we are having is getting people's attention that horseshoe 
crabs are fundamentally important to the ecotourism. It is a 
business issue, as well as an issue of migratory birds. Having 
a habitat conservation corridor like that, with some 
designation, would give us the context within which we can 
work.
    It will also improve the relationship between Delaware, 
Maryland, New Jersey and Virginia. Horseshoe crabs are, again, 
the classic example. Governors of the States of New Jersey, 
Delaware and Maryland have been very aggressive in managing 
those horseshoe crabs and protecting birds, but Virginia 
hasn't. As a result, in organization, for example, we have to 
run from state to state to try to make some headway, and right 
now we are not making as much as we would like in Virginia.
    Mr. Gilchrest. We'll put them all in the same room for you.
    Mr. Beard. That is great. We would love it. It would be a 
great opportunity for us.
    Mr. Gilchrest. Thank you.
    Mr. McDowell. Could I comment?
    First of all, we would welcome any opportunity to get 
involved in some coordinated State effort to protect habitat. 
Our governor just passed through the legislature the Open Space 
Initiative in the State of New Jersey which, in the end, we are 
about 4.8 million acres, we will protect about 2 million of 
that total, whether it be a conservation easement or a direct 
purchase or a farmland preservation.
    One of the focus areas in our State is Cape May and the 
Delaware Bay. Between the Wildlife Refuge System, our Wildlife 
Management Area System, we own most of the Bay shore of 
Delaware Bay. Currently, we are protecting two joint venture 
areas under a water fowl plan, both the Morris River and the 
Salem River, and we have initiated what is called the Landscape 
Project, and its focus is Cape May County. The Landscape 
Project uses the GIS mapping system. It identifies critical 
wildlife habitats and the linkages and takes that down to the 
Planning Board level and the landowner level of saying, ``Hey, 
watch out. This is an important area. How can we work around 
it?'' So that there is continuity in the habitat.
    So anything we could do to continue that, advance that, 
participate in with other States, we would be welcome and open 
to doing it.
    Mr. Gilchrest. That is great.
    Mr. Chairman, I do see the need, after a few newspaper 
articles, to increasing habitat for the wildlife in New Jersey 
because you have tigers there now, so----
    [Laughter.]
    Mr. Gilchrest. [continuing] you will probably have to 
increase it.
    Mr. Saxton. That is a subject----
    Mr. Gilchrest. Bengal tigers----
    Mr. Saxton. [continuing] of different stripes, sir.
    [Laughter.]
    Mr. Gilchrest. I would like to make, just very quick--
Jerry, in Kennedyville, there is an increase of marsh hawks. In 
the last few years, we have really seen them rise, a few extra 
nesting bald ea-

gles, even a golden eagle came through at one point--I haven't 
seen it for quite a while, and I guess it was migrating--and 
Baltimore orioles. I got a couple of Baltimore orioles' nests 
in the front yard last summer.
    Mr. Saxton. Would you care to comment on your nutria?
    Mr. Gilchrest. The nutria, well, I will say this, Mr. 
Chairman: And I don't have the exact date, but I will get it to 
everybody. Nutria is a nonindigenous species that is a real 
pest that we would like to send back to Latin America, in some 
capacity, or to restaurants because they are taking away a lot 
of our wetlands.
    And, Mr. Chairman, I will get you the specific date that we 
are going to Blackwater Refuge to have a meeting on nutria, and 
the meeting will end with a meal of nutria. So anybody that 
would like to participate in that, we will get you the dates.
    Thank you.
    Mr. Saxton. I will look forward to the meal.
    [Laughter.]
    Mr. Saxton. Well, I would just like to thank all of you for 
taking your time to travel here and to share your ideas 
relative to this issue.
    Once again, it appears that we are working with the 
conservation community, with other members, on a bipartisan 
basis, to do something that obviously has general agreement in 
a very broad way. And while there may be some differences and 
tweaking of language that we will do between now and the time 
this bill passes the House, to the extent that you have added 
to this conversation, we appreciate it very much.
    We look forward to working with you on this and other 
issues as we move forward. Thank you very much.
    The hearing is adjourned.
    [Whereupon, at 11:13 a.m., the Subcommittee was adjourned.]
    [Additional material submitted for the record follows.]
   Statement of John Rogers, Deputy Director, U.S. Fish and Wildlife 
                  Service, Department of the Interior

    I am pleased to be here to comment on H.R. 39, the 
Neotropical Migratory Bird Conservation Act, which will aid in 
the international conservation and management of neotropical 
migratory birds by supporting conservation programs and 
providing financial resources. The Administration supports the 
legislation, as it provides a mechanism for coordination and 
funding to promote the conservation of neotropical migratory 
birds and their habitats throughout Latin America, the 
Caribbean and North America. We acknowledge that other House 
members have introduced another bill. In addition, the Senate 
has their own version of this legislation which we could also 
support. We will be happy to work with the Subcommittee, other 
House members and the Senate to resolve the differences in the 
bills and to ensure that the final legislation serves the needs 
of neotropical migratory birds with the best program possible.
    We would like to thank Chairman Saxton of the Subcommittee 
and Chairman Young and Ranking Member Miller of the full 
Committee for co-sponsoring this important legislation. H.R. 39 
incorporates many of the comments and suggestions the Fish and 
Wildlife Service (Service) and Administration had provided to 
the Subcommittee last year.
    H.R. 39 establishes a grants program to provide financial 
assistance to Federal, State, local and Latin American/
Caribbean government agencies, non-profit and international 
organizations, and others to fund projects for the conservation 
of neotropical migratory birds. The legislation recognizes the 
need for international cooperation for these conservation 
efforts and establishes a grant selection process to ensure 
that projects focus on long term sustainability of local 
conservation efforts. The bill establishes a Neotropical 
Migratory Bird Conservation Account in the Multinational 
Species Conservation Fund and limits the Federal cost-share of 
the projects to 33 percent. We are pleased with the flexibility 
this legislation provides and with the increase in 
authorization of appropriations to $8 million per year through 
fiscal year 2004 to enable the Service to increase the size and 
scope of the program during the next 4 years.
    The Service--through four bilateral treaties--has 
responsibility for maintaining healthy populations of some 778 
species of migratory nongame birds and 58 species of migratory 
game birds, approximately 350 species of which (the so-called 
``neotropical migrants'') migrate between the Caribbean/Latin 
America and North America. Migratory birds continue to face 
enormous and increasing challenges. Thus, the Service has 
identified migratory bird conservation as one of our four 
highest priorities for the coming year.
    Despite our best efforts to date, many populations of 
migratory birds continue to decline, some quite markedly. For 
example, 124 species of migratory birds are currently on the 
Service's List of Migratory Nongame Birds of Management 
Concern. If population trends of these birds continue on their 
present downward course, the next place for these species may 
be on the List of Endangered Species. Ninety species of North 
American birds currently are listed under the Endangered 
Species Act (ESA). Mexico presently lists some 390 bird species 
as endangered, threatened, vulnerable, or rare. These current 
and projected future losses have far-reaching implications: 
economic, social, ecological, and recreational.
    Birds are important to us for many reasons--whether we 
reside in North America, Latin America, or the Caribbean. 
Birdwatching and other forms of bird-related recreation are 
highly valued pastimes in North America, with a growing 
interest in the Caribbean and Latin American countries. Nearly 
70 million Americans spend approximately $20 billion each year 
participating in bird-related recreation. Birdwatching is 
America's fastest growing major form of outdoor recreation. 
Additionally, birds prevent billions of dollars of economic 
losses each year by eating crop-damaging insect pests and weed 
seeds in North and Latin America and the Caribbean. They are 
important pollinators of many commercially valuable plants. 
Neotropical migratory birds are thus an important component of 
biological diversity in the Western Hemisphere.
    Neotropical migratory birds spend approximately five months 
of the year at Caribbean and Latin American wintering sites, 
four months at North American breeding sites, and three months 
en route to these areas during spring and autumn migrations. 
The nature of this ``shared trust'' resource makes migratory 
bird management a true international challenge. Our greatest 
challenge is to halt the precipitous declines of many of these 
species--due in major part to habitat destruction and 
degradation. H.R. 39 is a major step in the right direction in 
helping to reverse these detrimental trends. Severely declining 
bird species are causing grave concerns among natural resource 
managers and the public in both Caribbean and Latin American 
countries and in North America. H.R. 39 will help the U.S. and 
our international partners reverse species declines, conserving 
bird populations before they reach the point of requiring 
protection under the ESA. Equally as important, the legislation 
will help keep our ``common'' birds common, minimizing the 
expenditure of tax dollars and precluding the legal and public 
relations battles that have been known to surround endangered 
species listing issues.
    Furthermore, H.R. 39 does much to promote the effective 
conservation and management of neotropical migratory birds by 
supporting conservation programs and providing financial 
resources. H.R. 39 would require the Secretary of the Interior 
to develop and enter into agreements with other Federal 
agencies. The Department of the Interior is committed to 
coordinating with other agencies, including the Department of 
State and the U.S. Agency for International Development 
(USAID), in efforts to conserve neotropical migratory birds. 
USAID manages large ongoing programs in conserving neotropical 
migratory birds as well as habitats in general.
    We support this legislation because it will provide 
conservation benefits to all of our migratory birds, from 
shorebirds to raptors, marine birds and grassland birds. This 
visionary Act will help to unite all of the Americas in a 
coordinated effort to protect a vital component of our shared 
biological diversity. In conclusion, Mr. Chairman, we look 
forward to working with the House and Senate committees of 
jurisdiction throughout the legislative process to ensure that 
we develop a strong program for the conservation of birds 
throughout the Western Hemisphere. Again, thank you for the 
opportunity to provide our views on this important legislation.
                                ------                                


 Statement of Robert McDowell, Director, New Jersey Division of Fish, 
    Game and Wildlife for the International Association of Fish and 
                           Wildlife Agencies

    Thank you, Mr. Chairman. I am Robert McDowell, Director of 
the New Jersey Division of Fish, Game and Wildlife, 
representing the International Association of Fish and Wildlife 
Agencies, and I appreciate the opportunity to share with you 
the Association's perspectives on H.R. 39, the Neotropical 
Migratory Bird Conservation Act. The Association supports H.R. 
39 as a good start to address the needs of this important group 
of migratory birds at the southern terminus of their migratory 
route, but will also point out the unfulfilled conservation 
needs for these species in the United States and for domestic 
programs to address those needs.
    The International Association of Fish and Wildlife 
Agencies, founded in 1902, is a quasi-governmental organization 
of public agencies charged with the protection and management 
of North America's fish and wildlife resources. The 
Association's governmental members include the fish and 
wildlife agencies of the states, provinces, and Federal 
governments of the U.S., Canada, and Mexico. All 50 states are 
members. The Association has been a key organization in 
promoting sound resource management and strengthening Federal, 
state, and private cooperation in protecting and managing fish 
and wildlife and their habitats in the public interest.
    As you are aware, Mr. Chairman, the Association has long 
played an active role in migratory bird conservation, from the 
negotiation and ratification of the Migratory Bird Treaty in 
1916 and passage of the MBTA in 1918, to the North American 
Wetlands Conservation Act. The Association has also given the 
highest priority to securing the necessary funding to enable 
our State fish and wildlife agencies to address the 
conservation needs of the so-called nongame wildlife species 
(such as Neotropical migratory birds) and their habitats before 
they reach a point where the application of the Endangered 
Species Act is necessary. I know that you are familiar with our 
``Teaming with Wildlife'' proposal, Mr. Chairman, to accomplish 
those objectives. We hope to be able to fulfill those 
objectives with the passage of the Conservation and 
Reinvestment Act from Chairman Young and Congressman Dingell in 
this Congress. The Association and our member State fish and 
wildlife agencies are also very active in Partners-in-Flight, 
the Western Hemisphere Shorebird Reserve Program, the North 
American Waterfowl Management Plan, and other international 
endeavors to conserve migratory birds throughout their range. 
The Association therefore supports H.R. 39 as another measure 
to facilitate the conservation of migratory birds, particularly 
in Latin America and the Caribbean.
    Most of our member State fish and wildlife agencies 
participating in the North American Waterfowl Management Plan 
are currently sending matching funds to both Canada and Mexico 
to facilitate the conservation objectives of this plan. Our 
agencies in the border States of California, Arizona, New 
Mexico and Texas are already engaged in conservation efforts in 
Mexico and other Latin American countries to restore indigenous 
fauna. We anticipate that our State fish and wildlife agencies 
would likewise participate in the matching fund protocol that 
H.R. 39 would estab-

lish for neotropical migratory bird species conservation in 
Latin America and the Caribbean.
    The Association recognizes that effective conservation of 
the 800+ species of birds that occur in the United States 
during some part of their life cycle requires the cooperative 
efforts of conservationists at international, national, 
regional, state and local geographic levels. The efforts of 
these conservationists should be guided by a logical framework 
of planning (population and habitat surveys, inventory, 
monitoring actions and development of conservation strategies 
and measurable conservation objectives), implementation (on-
the-ground habitat conservation actions, education, training 
and research) and evaluation (assessment of effectiveness of 
implementation actions and progress toward conservation 
objectives). This process of planning, implementation, and 
evaluation, coordinated at multiple geographic scales (from 
local to international), provides an adaptive approach to 
delivery of migratory bird conservation that identifies 
priorities, measures progress, and constantly refines the 
efficacy of conservation efforts. This approach, however, 
cannot be fully realized without a firm foundation of technical 
and administrative capability, strengthened and integrated 
partnership cooperation, and a clear recognition that migratory 
bird conservation must be managed within a continental and 
international context. The Association has recently created an 
ad hoc Committee on Migratory Bird Funding to make progress on 
the effort to improve our abilities to effectively conserve 
migratory birds within a continental and international context.
    Let me now relate to you a few examples demonstrating that 
in order to successfully secure the conservation of these 
neotropical migrants, we need to address their life needs and 
habitat requirements both in the United States which 
encompasses their breeding range, in stopover habitats these 
species use during migration, and in the southern terminus of 
their migration, which is their winter range.
    The Cerulean Warbler is a neotropical migratory bird that 
breeds across the eastern United States and winters in northern 
South America, mostly to the east of the Andes mountains. The 
North American Breeding Bird Survey indicates that this species 
has declined significantly between 3.5 and 4 percent each year 
for the past 30 years on the breeding grounds in the United 
States, primarily as a result of loss and fragmentation of 
bottomland hardwood forest. During the non-breeding season, the 
species is known to frequent coffee farms in Latin America 
where it forages in the mid-story and canopy vegetation 
provided as shade for the growing coffee plants. However, much 
of that acreage is being converted to sun tolerant varieties of 
coffee. Sun tolerant coffee plantations do not provide the kind 
of habitat needed by over-wintering Cerulean Warblers. The 
effects of widespread loss of habitat on the wintering ground 
are likely to only compound the threats to survival faced by 
this species. Protection of both existing breeding and over-
wintering habitat is critical, and restoration of extensively 
forested landscapes and river bottoms is encouraged.
    On the west coast of the continent, the Alaska shorebird 
working group is developing a statewide comprehensive 
monitoring program. Since nearly the entire world population of 
Western Sandpipers breeds in Alaska, monitoring of population 
numbers and productivity of this abundant species must occur in 
Alaska. Funding is critically needed for state participation in 
monitoring of breeding populations. Much of the habitat in 
significant migration staging areas such as the Copper River 
Delta, Kachemak Bay, and Stikine River flats is state owned 
tidal flats. Funding is needed for management and conservation 
of these significant habitats.
    Western Sandpipers winter along the Pacific coast from 
California to Peru, and also to a lesser extent on the Atlantic 
and Gulf coasts of the U.S. During migration, they have 
spectacular congregations at staging sites. Major stopover 
sites during spring migration include San Francisco Bay, Grays 
Harbor, the Fraser River delta in British Columbia, and the 
Copper River Delta in Alaska. At the Copper River, it is 
estimated that as much as 90 percent of the world population of 
the species collects to feed before moving on to the breeding 
grounds--almost 2 million individuals were counted on one day, 
and 6.5 million were estimated during migration in one spring. 
Conservation risks now are mainly due to threats to habitat at 
staging sites on this species migration route.
    I would like to close with a few observations relative to 
the significance of familiar New Jersey habitats to neotropical 
migratory birds. Many of the neotropical migratory bird species 
use the Atlantic coast as a major north-south thoroughfare. 
Along this migration highway weather and the need for food 
often force birds to delay their journey. The areas where they 
delay, or stopover areas, are the most important habitats along 
a migrant flight path. For many species, especially those 
making long flights like the red knot, scarlet tanager and 
osprey, the protection of quality stopover habitat can make the 
difference between a species survival and extinction.
    The Delaware Bay and Cape May Peninsula are among the most 
important stopovers in the world. The reasons are numerous:

        <bullet> The fall flight through Cape May not only includes 
        over 150 species of passerines and 21 species of raptors, but 
        also woodcock and over 30 species of migratory butterflies and 
        dragonflies.
        <bullet> The spring stopover of shorebirds through the Delaware 
        Bay, one of the top three in the world, includes over 15 
        species, some making round trip flights of over 20,000 miles.
        <bullet> Both fall and spring migrants gain weight while 
        stopping over and this weight can be crucial to the success of 
        their migration. Shorebirds double their body weight before 
        flying non-stop to arctic breeding grounds. The primary 
        resource is horseshoe crab eggs and the bay is the only place 
        in the world where crabs occur in sufficient number to produce 
        enough eggs for birds to gain more than 3-5 percent of their 
        body weight/day.
        <bullet> The Cape May peninsula and the Delaware Bay is one of 
        the most used ecotourism destinations in the country. An 
        estimated $30 million in the fall and an estimated $5-$10 
        million in the spring are spent each year by visiting birders 
        alone.
        <bullet> The wide diversity of bird species requires a wide 
        array of habitats, distributed over a large part of the 
        bayshore and peninsula. In other words, the birds require a 
        functioning ecosystem right in the very heart of the New York-
        Washington megalopolis.
    A major portion of the U.S. human population, nearly 15 
percent, is within a three-hour drive of this area. This adds 
incredible pressure in almost all areas of potential impact: 
land development, disturbance, contamination, and catastrophic 
oil spills. But if we are to protect this stopover habitat, we 
must also conserve the integrity of the ecosystem in which 
these habitats occur.
    In consequence, the bay and peninsula have been the subject 
of numerous protection attempts. In the last 15 years we have 
seen nearly every major national program play some role in 
protection. The bay has been designated a RAMSAR site, a WHRSN 
Hemispheric site, an EPA Estuary of National Significance, and 
a TNC Last Great Place, to name a few. It has been ranked near 
the top of several land acquisition programs including the Land 
and Water Conservation Fund program, a North American Waterfowl 
Management Plan Joint Venture, as well as the New Jersey state 
Green Acres Program. The areas include four National Wildlife 
Refuges including the recent Cape May National Wildlife Refuge, 
three different wild and scenic rivers (two sections of the 
river and one tributary), many state Wildlife Management Areas 
on both sides, and a large number of parcels held by private 
conservation organizations.
    Yet despite this extraordinary protection, there are clear 
signs of major needs for these wildlife species that remain 
unsatisfied. The fall migration is threatened because nearly 40 
percent of all migratory bird habitat has been lost between 
1972 and 1992, the period of greatest protection activity.
    These problems can only be corrected with a significant 
increase in conservation efforts and programs directed at these 
problems. The New Jersey Division of Fish, Game and Wildlife 
has piloted a number of projects using funds from private 
foundations and mitigation agreements that with stable and 
significant funding can lead to permanent protection. These 
pilot projects suggest the conservation of both the spring and 
fall flight of migratory birds can be accomplished with new 
programs aimed at an increased involvement of citizens, 
municipal and local governments, and an additional emphasis by 
state fish and wildlife and land management agencies.
    The first job would be to create landscape level mapping of 
significant wildlife habitat areas that would be made widely 
available, and characterized not only as key habitat for 
wildlife, but as indicators of our community quality of life. 
These maps can be based on satellite imagery and could be 
redone regularly to provide feedback to community organizations 
on the real impact of the conservation of these habitats.
    This regional scale mapping can be used to facilitate the 
coordination of state and Federal level activities that include 
consideration of migratory birds such as land acquisition, and 
application of conservation and habitat management programs.
    At the county and municipal level, state fish and wildlife 
agencies can assist land use planners in the development of 
land use ordinances that reduce impact to migratory birds and 
recommend zoning classifications to protect areas of greatest 
importance. This could include, for example, changes to the 
minimum amounts of land cleared for each new house or the width 
of setbacks for roads and property.
    At the private landowner level, state fish and wildlife 
agencies can affect habitat in two ways. For large private 
landholdings, we can develop management plans that allow bird 
habitat protection while still achieving landowners' goals. To 
encourage protection, we would take advantage of existing 
financial incentives from other agencies such as farmland 
conservation programs under the Federal farm bill and other 
state and Federal programs. We can also refer landowners of 
valuable wildlife habitat to programs of land acquisition, 
conservation easements, or purchase of development rights if 
they are interested in long-term conservation.
    Backyard habitat for migratory birds can also be created or 
enhanced by working with individual homeowners. We can target 
developments that are adjacent to important areas and have 
created a state program to certify backyard wildlife habitat. 
We can also use additional funding to create incentives to 
manage backyards. State fish and wildlife agencies can also 
work with developers to certify entire new developments as 
migratory bird sanctuaries. Working with homeowners has the 
additional benefit of creating habitat in areas where habitat 
has already been lost, namely housing developments.
    These project elements were embraced by the Northeast 
Partners in Flight working group as a realistic way to conserve 
stopover habitat throughout the mid-Atlantic region, from New 
Jersey to Virginia. Unfortunately, funding is currently 
unavailable for this forward-looking endeavor.
    I share these examples with you, Mr. Chairman, to highlight 
the very vital needs that these species have in both their 
northern and southern habitats. Towards addressing those needs, 
the Association certainly supports H.R. 39 as a good first step 
in the right direction. We also look forward to working closely 
with you to successful passage of the Conservation and 
Reinvestment Act, which will position the state fish and 
wildlife agencies to fulfill our conservation obligations to 
these species in the United States.
    Thank you for the opportunity to share the Association's 
perspectives with you, and I would be pleased to address any 
questions.
                                ------                                


Statement of Ken Reininger, Curator of Birds, North Carolina Zoological 
                     Park, Asheboro, North Carolina

    Mr. Chairman and Members of the Subcommittee:
    Thank you for the opportunity to testify in support of H.R. 
39, the Neoptropical Migratory Bird Conservation Act. My name 
is Ken Reininger. I am the Curator of Birds for the North 
Carolina Zoological Park in Asheboro, North Carolina, an 
accredited member of the American Zoo and Aquarium Association 
(AZA) since 1974. The AZA represents 183 accredited zoos, 
aquariums, oceanariums, and wild animal parks in North America, 
as well as most of their professional employees.
    I have a total of twenty-four years of experience as an 
aviculturist and avian collection manager in a public 
zoological park setting, including six years as the bird 
curator at the North Carolina Zoo. I have participated in a 
number of bird recovery programs, including the Hawaiian Nene 
Goose, wattled crane, and Bali mynah, and have worked on field 
programs from North Carolina to South Africa. I also serve on a 
number of AZA scientific and advisory committees.
    Renowned as the first American zoo designed and built from 
its inception around the natural habitat philosophy, animals at 
the North Carolina Zoo wander through large indoor and outdoor 
habitat that stimulate their wild environments. The mission of 
the North Carolina Zoo is to encourage understanding of and 
commitment to the conservation of the world's wildlife and wild 
places through the recognition of the interdependence of people 
and nature. We believe the sustainable use of natural resources 
is a vital concern for humans as well as wildlife. We are proud 
of our efforts to give our visitors information they can use to 
make wise choices about the use and management of natural 
resources.
    Included in the zoo's collection is the R.J. Reynolds 
Forest Aviary, a miniature tropical forest with 100 rainbow-
colored exotic birds. Opened in 1982, it was selected by USA 
TODAY as one of the 10 best exhibits in American zoos. It was 
also the zoo's first indoor exhibit. The zoo is very proud of 
its tradition of excellence in the conservation of threatened 
and endangered bird species.
    Mr. Chairman, I would like to take this opportunity to 
thank you, Congressman Miller, and Chairman Young for 
reintroducing H.R. 39, and for conducting this hearing so early 
in the session. I also thank the Chairman for making some of 
the recommended changes offered by the Administration in 1998.
    As you are well aware, one of the greatest threats to many 
species is habitat loss and degradation. One of the more 
successful practices to reduce these pressures has been to 
encourage habitat conservation in the form of public-private 
partnerships (e.g. the African and Asian Elephant and Rhino and 
Tiger Conservation Acts). I believe H.R. 39 will continue this 
relatively new formula of success, and at the same time, 
complement existing conservation programs and initiatives, such 
as Partners in Flight and the North American Waterfowl 
Management Plan.
    Although migratory birds are protected by the Migratory 
Bird Treaty Act (the United States is a party to four bilateral 
treaties, one each with Great Britain (on behalf of Canada), 
Mexico, Russia, and Japan), a number of migratory songbird 
species continue to face increasing challenges throughout North 
America. These species face challenges from forest 
fragmentation, the loss of habitat on wintering areas and the 
loss of habitat at key migration stopover sites. I know from 
personal experience the importance of these key areas such as 
the Outer Banks of North Carolina to birds making the long 
migratory journey.
    Moreover, over 90 North American bird species are listed as 
endangered or threatened under the Endangered Species Act while 
another 124 species are currently listed on the list of 
Migratory Nongame Birds of Management Concern. Should many of 
these birds maintain their historic migratory routes, their 
next stop will most likely be to the list of endangered and 
threatened species. Their important wintering and feeding 
grounds are simply under attack. While Mexico lists some 390 
bird species as vulnerable or endangered, much more is needed. 
There needs to be a commitment from many at both ends of the 
migratory route, from the wintering grounds in the more 
tropical regions to the cooler northern breeding habitats and 
all the critical habitat in between to conserve these species. 
Preserving habitat for neotropical migratory birds is truly a 
team effort. We cannot allow continued fragmentation of habitat 
to continue.
    I know and understand the importance of community 
involvement and the value of partnerships and education 
outreach for a wildlife conservation program to be successful. 
Whether it is balancing the needs of the bald eagles with 
logging interests, land developers and power companies as done 
in the Yadkin PeeDee Lakes region of Central North Carolina, or 
involving South African trout farmers in wetlands and wattled 
crane preservation, I have learned the value of insuring that 
all stakeholders are brought into the problem solving process.
    I believe H.R. 39 is a step in the right direction. The 
legislation and its subsequent Fund create a cooperative 
atmosphere and the foundation for a win-win situation for 
neotropical migratory birds and their important migratory 
habitat, our international partners in conservation, and the 
millions of Americans who spend an increasingly amount of time 
bird watching and on bird-related activities. H.R. 39 continues 
the innovative cost-sharing formulas from earlier conservation 
measures utilizing both Federal and non-Federal support. Most 
of all, by establishing the Neotropical Migratory Bird 
Conservation Fund, the United States elevates the importance of 
protecting critical migratory bird habitat in Latin America, 
the Caribbean and throughout the Americas. Moreover, from a 
biologic perspective, H.R. 39 will help to ensure that the 
ecosystems, which neotropical birds and humans depend on, are 
managed in a more sustainable way.
    In conclusion, H.R. 39 represents the best in conservation 
legislation--a targeted strategy to protect critical habitat 
and biodiversity, a proven formula to foster public private 
partnerships through a competitive grant process, and a program 
that complements existing national and international programs.
    As John Rogers, Deputy Director for FWS stated last year in 
his testimony before the Senate Committee on Environment and 
Public Works, ``The nature of this `shared trust' resource 
makes migratory bird management a true international 
challenge.''
    Thank you for the opportunity to appear before you today. 
Mr. Chairman, I will be happy to answer any questions from the 
Committee.
                                ------                                


Statement of Daniel P. Beard, Senior Vice-President for Public Policy, 
                        National Audubon Society

    Mr. Chairman, I appreciate the opportunity to testify to 
the Subcommittee on H.R. 39, the ``Neotropical Migratory Bird 
Conservation Act.''
    The National Audubon Society has nearly one million members 
and supporters throughout the Americas who are dedicated to the 
preservation and protection of birds, other wildlife and their 
habitat.
    Mr. Chairman, I am pleased to appear before you today in 
strong support of H.R. 39, the ``Neotropical Migratory Bird 
Conservation Act.'' This legislation, plus H.R. 381 introduced 
by Congressman Jim Greenwood, are major steps forward in our 
efforts to protect and enhance bird habitat in Latin America 
and the Caribbean. I want to compliment Chairman Young and Mr. 
Greenwood, for introducing these bills and giving this matter 
the important attention it deserves.
    For the reasons I will detail below, I would like to 
express our wholehearted support of the Neotropical Migratory 
Bird Conservation Act of 1999. This bill addresses the 
important need for protecting and enhancing populations of 
neotropical migratory birds, using effective and relatively 
inexpensive means.

        <bullet> Why is it important to protect neotropical migratory 
        birds?

    Birds are a beautiful and important part of our natural heritage. 
Perhaps more than any other kind of wildlife, birds are highly visible 
and thus easy for us to enjoy. Hundreds of species of migratory 
songbirds link the Western Hemisphere. In their journeys from breeding 
grounds in the United States and Canada to winter homes in Latin 
America and the Caribbean, the annual spectacle of migration is a 
source of fascination for the millions of Americans who watch and feed 
birds.
    Migratory birds have become fundamental components of many local 
economies. According to surveys completed by the U.S. Fish and Wildlife 
Service, more than 63 million Americans watch and feed birds. Each 
year, more than 24 million Americans travel to watch birds. In 1991, 
birdwatchers spent $5.2 billion on goods and services related to bird 
feeding and watching. These expenditures generated nearly $600 million 
in tax revenue for states and the Federal Government. Non-consumptive 
bird use supports almost 200,000 American jobs.
    But many of these remarkable creatures are disappearing due to loss 
and declining quality of habitat in the United States, Canada, and 
throughout Latin America and the Caribbean. Forest fragmentation and 
the development of grasslands and wetlands in North America mean fewer 
breeding areas for birds. Deforestation and development in Latin 
America and the Caribbean have left migratory birds with fewer places 
to stop on their long migrations and fewer places to spend the winter. 
For example, Central America, which plays winter host to as many as 
one-third of all migrants, lost about 2.3 million acres of forest cover 
per year between 1990 and 1995. The Audubon/Partners in Flight 
Watchlist documents the decline of many once common neotropical 
migratory birds like the Cerulean Warbler and the Red Knot.

        <bullet> Why is this bill a good way to protect neotropical 
        migratory birds?

    The neotropical migratory birds Americans enjoy watching and 
spending money to see spend part of each year in Latin America or the 
Caribbean. If we want to protect these birds, we must protect their 
habitat here in the United States, as well as in Latin America and the 
Caribbean. Protecting wintering habitat is a way of protecting our 
investment in wildlife conservation here in the United States.
    We believe this is not only a good investment, but an efficient 
one. By supporting proactive conservation measures such as those that 
would be covered by the bill, we can help avoid the costly process of 
helping endangered species recover.
    This is also an efficient bill because instead of relying solely on 
taxpayer dollars, the bill would encourage leveraging Federal dollars 
by helping to build partnerships with the business community, non-
governmental organizations and foreign nations. The flexible matching 
fund requirements of this bill will give the Department of the Interior 
greater flexibility to choose appropriate projects.
    As a leading bird conservation organization, the National Audubon 
Society looks forward to facilitating the partnership process by 
identifying need areas, sources of private funding, and local groups 
potentially able to manage and conserve habitat.
    I would offer the following suggestions for the Committee, should 
the decision be made to move the bill:

        <bullet> We would urge the Committee to substitute the purposes 
        language contained in H.R. 4517 (105th Congress) for the 
        language currently used in H.R. 39. The language in H.R. 39, 
        especially subsection (2) is overly broad and does not include 
        language calling for ``protection'' of neotropical birds.
        <bullet> If a decision is made to report H.R. 39, I would urge 
        the Committee to consider adding language authorizing 
        establishment of a neotropical migratory bird advisory 
        committee. H.R. 381 authorizes such a committee and we believe 
        it could be an important focal point for raising the visibility 
        of this issue among Federal agencies and Latin American and 
        Caribbean governments.
        <bullet> The bill should be amended to make it clear that a 
        majority of the funds appropriated should be spent in Latin 
        America and the Caribbean. Habitat in these areas is in dire 
        need of restoration and dollars spent in these areas will in 
        many cases have greater impact because of the lower cost of 
        land and labor.
        <bullet> Finally, as currently drafted, H.R. 39 could 
        potentially allow the Secretary to make available all the funds 
        for neotropical projects to U.S. Federal agencies. I would urge 
        you to revise the language to ensure that the majority of the 
        funds are made available to foreign governments and non-
        governmental organizations to promote conservation projects in 
        Central America and the Caribbean. If a majority of the funds 
        are diverted to U.S. Federal agencies, our efforts to save 
        neotropical birds will have been curtailed.
    Mr. Chairman, we are pleased to support this legislation and look 
forward to working with you and other Committee members to enact it 
into law. Thank you for this opportunity to testify today. I would be 
happy to answer any questions you might have.
                                 ______
                                 

Statement of Christopher E. Williams, Senior Program Officer, Wildlife 
         Conservation Policy U.S. Program, World Wildlife Fund

    World Wildlife Fund is an international organization 
dedicated to the conservation of wildlife and wildlands 
worldwide. On behalf of WWF's 1.2 million members in the U.S., 
I am here to express support for H.R. 39, the Neotropical 
Migratory Bird Conservation Act of 1999 (NMBCA).
    The term ``neotropical migratory bird'' conjures images of 
exotic species perched amid the vines of a distant jungle. In 
fact, some of the most beloved birds of America's forests, 
grasslands, and backyards, such as the Baltimore oriole, indigo 
bunting, scarlet tanager, and bobolink, are neotropical 
migrants. Bird enthusiasts across the eastern U.S. know that 
February brings the woodcock and the redwing blackbird back 
from their winter habitat in Florida. In March, the phoebes and 
tree swallows return from Mexico. April brings sandpipers, 
plovers and a spectacular array of warblers back from the West 
Indies, central, and South America.
    As wondrous as the spring return of the neotropical 
migrants is today, it is hard to imagine what it must have been 
like 200 years ago. The majority of the over 300 neotropical 
migrant species of the U.S. find mates, breed, and fledge their 
young in the remnants of the once great forests of the eastern 
United States. It is estimated that before they began to fall 
to European settlement, the eastern forests in the U.S. and 
Canada were home to over two billion migratory birds. Sadly, 
habitat alteration in North America alone probably reduced that 
number by greater than half, and loss of habitat in the 
wintering areas of Latin America and other threats have further 
reduced the great migrations to a trickle.
    The tall-grass prairies of the Great Plains were likewise 
home to tremendous populations of grasslands migrants. Studies 
have determined that a square kilometer of tall grass prairie 
and oak/hickory forests that once dominated the central U.S. 
will support 100-200 individual neotropical migrant birds. 
However, scarcely 1 percent percent of that habitat still 
exists, and the cornfields that have largely replaced it 
support no neotropical migrants at all.
    Populations of neotropical migrants in the west have always 
been much smaller, confined to canyons, montane forests, and 
riparian habitats. What the west lacks in sheer numbers it more 
that makes up in the spectacular diversity of species within 
such isolated habitats. The riparian habitat along the San 
Pedro River in Arizona, for example, provides safe haven for 
over 250 species of migratory birds. Unfortunately, the canyon 
and montane habitats on which the birds depend are those most 
attractive to development. Riparian forests such as the San 
Pedro have all but disappeared in the southwest, threatening to 
sever the great migration routes of the western U.S.
    Exacerbated by habitat loss and habitat fragmentation, 
others threats to neotropical birds in the U.S. are taking a 
heavy toll. Nest raiders such as raccoons, squirrels, blue 
jays, and crows, thriving in urban and suburban settings where 
natural enemies are few and food sources plenty, are putting 
heavy predation pressure on many populations. Common housecats 
and their feral cousins are a devastating threat to birds of 
all kinds, killing as many as three billion birds a year.
    Extensive forest clearing and ready food sources in 
agricultural fields have caused explosive growth in the 
population and range of the parasitic cowbird. Cowbirds lay 
their eggs in the nests of other species, sometimes rolling the 
rightful owner's eggs out of the nest. The unwitting hosts then 
raise the cowbird chicks. The larger cowbird chicks out-
compete, and sometimes even kill, the nestlings of the host 
parent. While the extent of the impact of cowbird parasitism on 
bird populations is unclear, it is undoubtedly substantial. One 
species of neotropical migrant, the Kirtland's warbler, is kept 
from extinction today only by human intervention to protect its 
nesting areas from a relentless assault by cowbirds.
    This catalogue of ills covers only the bird's northern 
habitats. In their wintering habitat in Latin America and the 
Caribbean, neotropical migrants also face the loss and 
fragmentation of forest habitat. Although it is difficult to 
establish the link between tropical habitat loss and population 
declines of neotropical birds, the evidence is strongly 
suggestive. A case in point is the Bachmann's warbler, a 
species on the threshold of extinction, if not lost already. 
Though the warbler's southern bottomland breeding habitat in 
the U.S. has been drastically reduced, other migrants dependent 
on the same habitat still thrive in what remains. The cause of 
the Bachmann's warbler's demise most likely lies in Cuba, where 
virtually all of the species' wintering habitat has been 
destroyed.
    Neotropical migrants, like other birds, also face the 
pervasive threat of toxic chemicals. Pesticides banned or 
heavily regulated in the U.S. are still heavily applied in 
Latin America. In one horrific example, thousands of Swainson's 
hawks have been killed in recent years by misapplications of 
pesticides in Argentina. Evidence is mounting that even 
pesticides lawfully applied in the U.S. are having a 
devastating impact on bird populations.
    Given the battery of threats facing neotropical birds, the 
wonder is not that they are declining, but rather the stubborn 
resilience with which they survive. Pervasive threats such as 
these require concerted conservation action at all stages of 
the migratory cycle. The Neotropical Migratory Bird 
Conservation Act (NMBCA) would provide opportunities for such 
action. World Wildlife Fund supports passage of the Act to 
create an important new tool to leverage action to conserve 
important habitat, promote research, support law enforcement 
and protected area management, and foster education and 
outreach throughout the range of neotropical migratory birds.
    One of the strengths of the Act is its emphasis on 
promoting cooperative work in the field to conserve and restore 
neotropical migrant populations and habitat. Though the 
proposed appropriation for the program is relatively small 
given the enormity of the threat, the program can provide much 
needed leverage for a wide range of public and private 
conservation projects, creating goodwill and a spirit of 
cooperation that go beyond the immediate benefits of the 
individual project. For precedent, one can look to the U.S. 
Fish and Wildlife Service's highly successful Partners for 
Wildlife program which promotes cooperation between Federal and 
state agencies and private landowners to conserve Federal trust 
species. H.R. 39 proposes a similar model of cost sharing for 
projects aimed at neotropical migrants. It would create a 
program of great versatility that would operate across the 
range of the species, creating partnerships for conservation 
regardless of international borders.
    The NBMCA could provide matching funds for projects as 
diverse as restoring a sea grass bed in the Chesapeake Bay, 
preserving a nesting area in a private woodlot in West 
Virginia, planting cottonwoods and willows to restore degraded 
habitat on both sides of the Rio Grande, protecting a playa in 
northern Mexico vital to migrating waterfowl or a desert scrub 
area in Venezuela important for wintering songbirds. The Act's 
expansive language regarding who may apply for funds and the 
types of activities that promote conservation allows 
considerable creativity and innovation. Importantly, the Act 
provides that the Secretary coordinate activities under the Act 
with existing efforts in order to ensure maximum benefit for 
neotropical migrants.
    The evidence demonstrating the dramatic declines in at 
least some species of neotropical migrants is overwhelming, but 
much research is needed to ascertain the true extent of those 
declines and their causes. Studying neotropical migrants as 
they move throughout their range, identifying important 
habitats, and pinpointing causes of decline of individuals 
species, present daunting challenges. For example, many 
migrants, while preferring one kind of habitat in the summer 
months--say, deep forest--may favor a completely different 
terrain when wintering in South America. Thus, it is true of 
many neotropical migrants that we do not even know exactly 
where their wintering habitats are located. Money from the fund 
established by the NMBCA could provide invaluable support to 
the work of scientists in Latin America, the Caribbean, and the 
U.S. to gather the information necessary for successful 
conservation efforts.
    In Latin America particularly, money from the NMBCA could 
provide a tremendous boost to protected area management and law 
enforcement actions to protect migratory bird habitat. Mexico, 
for example, has an outstanding system of designated protected 
areas, many of which provide important habitat for neotropical 
migrants. However, personnel in many of these areas lack the 
basic equipment and training necessary to manage them 
effectively and enforce the laws and regulations that protect 
them. In many cases, a relatively modest infusion of resources 
could dramatically improve the situation. Even in the U.S., 
funds from the NMBCA program could boost protection efforts in 
places of unique importance, such as large, intact habitat 
areas like Great Smoky Mountains National Park or key migratory 
stopovers like the San Pedro River Riparian National 
Conservation Area.
    Education and outreach are vitally important in any 
conservation effort. For decades, WWF has operated on the 
principle that we cannot be successful unless local people are 
willing participants in our conservation projects. The NMBCA 
account could provide funding for education efforts in schools, 
interpretation services in parks and protected areas, and 
instruction for private landowners who want to vol-

untarily manage their property for neotropical migrants. It 
could fund outreach programs to rally support for local 
protected areas and establish fora for creating community-based 
conservation projects.
    One of the most important and laudable aspects of H.R. 39 
is its emphasis on conserving neotropical migrant populations 
and habitat at all points of their lifecycle. This represents 
an expansive view of conservation similar that adopted by WWF 
as the organization has shifted its emphasis from individual 
species to the conservation of habitat and ecological processes 
that sustain them. In the United States, WWF is concentrating 
its resources in five ecoregions: the Chihuahuan Desert of the 
U.S. southwest and Mexico, the Bering Sea, the rivers and 
streams of the southeastern U.S., the Klamath-Siskiyou forests 
of northern California and southern Oregon, and south Florida 
including the Everglades. Each of these has been identified as 
an area of globally outstanding wildlife and plant diversity 
and richness. WWF is working with conservationists, landowners, 
corporations, Federal and state agencies, and other 
stakeholders to develop strategies for conserving the whole 
range of flora and fauna within them. Similarly, H.R. 39 would 
promote cooperative efforts to conserve the full range of 
neotropical migrants throughout their range.
    Towards that end, WWF recommends that H.R. 39 be amended to 
include Canada specifically in the program. While the Act as 
written does not preclude funding for projects in Canada, the 
language of the bill suggests that its scope is limited to the 
U.S. and Latin America. Many neotropical migrants, such as the 
American golden plover, semipalmated sandpiper, and suribird 
annually make the long journey from the Arctic Circle to South 
America and back again. Amending the Act to provide eligibility 
for cash or matching funds to neotropical migrant conservation 
projects in Canada would make the NMBCA a truly hemispheric 
initiative, and make the Act an even more effective instrument 
for honoring our international commitments to conserve 
migratory birds.
    We also recommend that the limit on the Federal share of 
each project be scaled depending on the financial resources of 
the applicant, from 33 percent to a maximum of 75 percent. This 
would provide greater access to the program for individuals and 
entities with scant resources.
    Finally, we recommend that the annual authorized 
appropriation be increased to $12,000,000 in fiscal year 2001, 
and to $15,000,000 in fiscal years 2002, 2003, and 2004. This 
would provide greater resources for including Canada in the 
program, increasing the Federal cost share, and supporting more 
projects as the program develops over the next five years. 
Partners for Wildlife was appropriated almost $25,000,000 for 
fiscal year 1999. Given the ambitious goals and international 
reach of the NMBCA, its funding level should at least approach 
those of analogous programs of more limited scope.
    Thank you very much for considering WWF's views on this 
important topic.
                                ------                                


 Statement of the Gerald Winegrad, Vice President for Policy, American 
                            Bird Conservancy

    I am Gerald W. Winegrad, Vice President for Policy of the 
American Bird Conservancy. ABC is a national organization 
dedicated to the conservation of wild birds in the Americas. 
Our staff of ornithologists and other specialists work on 
programs critical to avian conservation including Partners in 
Flight, the Important Bird Areas (IBA) program, Pesticides and 
Birds Campaign, CATS INDOORS!, and our collaborative 
partnership through a 78 member organization Policy Council. 
The Policy Council includes conservation groups from across the 
U.S. such as National Audubon Society, World Wildlife Fund, 
Environmental Defense Fund, International Association of Fish 
and Wildlife Agencies, Cornell Laboratory of Ornithology, 
American Ornithologists Union, and the Peregrine Fund. ABC also 
administers a small grants program to foster bird conservation 
in Latin America and the Caribbean. We thank you for the 
opportunity to testify and submit these comments in support of 
H.R. 39, the Neotropical Migratory Bird Conservation Act. This 
legislation authorizes $8 million annually for matching grants 
(33 percent Federal share) to be made through the Secretary of 
the Interior for the conservation of neotropical migratory 
birds. At least 50 percent of the funds would be used for 
projects outside the U.S.
    This legislation is important in its Congressional 
recognition of the serious decline in many populations of 
migratory birds and through its efforts to help finance 
conservation projects both in the U.S. and in Latin America and 
the Caribbean, where most U.S. birds spend their winters. 
American Bird Conservancy has been pleased to have worked with 
Senator Spencer Abraham's office on the original introduction 
of last session's S. 1970 and this session's Senate counterpart 
to H.R. 39, S. 148. We are hopeful that the introduction and 
passage of such legislation, with biparti-

san support, will begin an era of Congressional recognition of 
the need for a comprehensive approach to resolve the serious 
threats to migratory bird populations in this country and in 
nations to our South. These threats include: habitat loss; 
habitat fragmentation; pesticides and other contaminants; 
introduced exotic species; human constructed barriers to 
migration such as communication towers; free-roaming domestic 
cats; and insufficient funding and incentives to better manage 
existing habitat.
    We support the passage of H.R. 39 and would ask that the 
full $8 million funding be appropriated in the FY 2000 budget 
to implement the migratory bird grants program as soon as 
possible, as is envisioned in the legislation. There are 
critical needs for this funding both in the U.S. and in Latin 
America and the Caribbean. We would request that the bill be 
amended to provide for an advisory panel to help guide the 
Secretary of Interior in decisions for funding under the Act. 
Such a provision exists in S. 148. Further, the legislation 
should specify the U.S. Fish and Wildlife Service as the 
administering agency under Interior as is done in the Senate 
bill. The Fish and Wildlife Service has significant experience 
in migratory bird conservation through its Office of 
International Affairs and its Migratory Bird Management Office. 
We also suggest that the match from the U.S. funds be increased 
to at least 50 percent of a project's cost for U.S. projects 
from the bill's 33 percent. We would suggest that the U.S. 
match be at least 50 percent for projects in Latin America and 
the Caribbean, with discretion in the Secretary to increase 
that to 75 percent dependent on the priority of a project. This 
would facilitate the involvement of NGO's and other agencies, 
particularly in Latin America and the Caribbean.
    This legislation is before the Congress at an opportune 
time in bird conservation. Partners in Flight bird conservation 
plans are being completed this year for all areas of the U.S. 
These plans, developed by a unique partnership of Federal and 
State agencies, private corporations and landholders and 
conservationists, detail the needs for avian species in 52 
distinct geophysical units. Priority species are described and 
the plans specify on-the-ground management measures necessary 
to enhance populations of migratory birds. In addition, the 
United States National Shorebird Conservation Plan and the 
North American Colonial Waterbird Conservation Plan are under 
development. Most importantly, this large scale planning 
process is being combined into a North American Bird 
Conservation Initiative with the full participation of Canada 
and Mexico. Excellent meetings have been help recently in 
Puebla, Mexico on the North American Initiative and other 
nations are joining in these efforts. Passage of the 
Neotropical Migratory Bird Conservation Act and the 
appropriation of the full $8 million will indicate to U.S. 
planners and to the international community that the U.S. is 
serious about acting to conserve avian species.
    Today, there are approximately 9,040 species of birds on 
Earth with about 852 found in the U.S. Of these U.S. birds, 90 
are listed as endangered or threatened under the Endangered 
Species Act. Another 124 additional species are listed by the 
U.S. Fish and Wildlife Service as being of management concern, 
meaning that they may become candidates for listing under the 
ESA without additional conservation action or that special 
attention is warranted to prevent declines. Listed as species 
of concern are the Common Loon, American Bittern, Reddish 
Egret, Red shouldered Hawk, Snowy Plover, Black Tern, Short-
eared Owl, Red-headed Woodpecker, Bell's Vireo, and Golden-
winged Warbler. Largely due to loss of habitat, habitat 
fragmentation, introduced species including domestic cats, and 
contaminants, many bird species are experiencing serious 
declines. From 1966 to 1993, the Breeding Bird Survey has 
detected: a 90 percent decline in Black Skimmers; a 40 percent 
decline in Wood Thrushes; a 90 percent decline in Black chinned 
Sparrows; and a 50 percent decline in Cerulean Warblers and 
Loggerhead Shrikes. Already listed under the ESA are such avian 
species as the California Condor, Stellar's Eider, Piping 
Plover, Whooping Crane, Aleutian Canada Goose, and the 
Everglade Snail Kite. Gone forever is the Passenger Pigeon, 
once one of the most numerous birds in North America. Also gone 
forever is the once relatively plentiful Carolina Parakeet.
    Of the 852 species found in the U.S., 778 are migratory 
nongame birds and roughly 350 are migratory songbirds species. 
About 250 of these songbirds are neotropical migrants. Many of 
these neotropical migratory song birds are in serious decline 
with documentation of an overall 50 percent decline in the 
volume of annual flights over the Gulf of Mexico in the last 
twenty years. Songbirds found in grasslands are experiencing 
some of the largest and most consistent declines, including the 
Bobolink and Meadowlarks. Many forest-dwelling species also are 
in serious decline.
    With our nation growing and sprawling and consuming huge 
chunks of open space, it is imperative that we assure our 
citizens that we will not continue to erode our natural 
heritage and directly contribute to the decline in 
biodiversity, especially of avian species. With over 50 percent 
of America's wetlands gone, with over 95 percent of our prairie 
grasslands gone, and with the continued fragmentation and con-

version of forest land, wildlife resources, especially birds, 
are at risk. More localized impacts of great significance to 
avian species can be found throughout our Nation. The counties 
around Washington D.C. have lost over 50 percent of their 
forest cover in the last 20 years. Iowa has lost 99 percent of 
its original marshes. And, according to the Smithsonian 
Institution, ``less than 1 percent of the native woodlands 
along rivers in the arid southwest remains and much of that is 
damaged by grazing cattle or dominated by exotic vegetation. 
Riparian woodlands in California's Central Valley have lost 
most of the neotropical migratory bird species that were once 
abundant there.'' Habitat loss and fragmentation continue to 
pose grave threats to many species of migratory birds. Hence, 
ABC supports continued acquisition of public lands and their 
prudent management for birds and other wildlife.
    Even protected lands in our National Wildlife Refuge system 
have been degraded by poorly managed economic activities 
outside their boundaries. For example, the Blackwater National 
Wildlife Refuge near Cambridge on Maryland's Eastern Shore has 
lost over 5,000 acres of essential salt marshes from rising 
water levels caused in part by wetland drainage and 
channelization outside of the Refuge primarily for agricultural 
activities. And, the Kesterton National Wildlife Refuge in 
California has been contaminated by runoff from farm land to 
the point that feeding migratory waterfowl risk poisoning and 
must be chased from the Refuge.
    Recent studies and surveys document the huge economic 
impact of birdwatchers. Over 76 million Americans are 
birdwatchers, both backyard and non-residential viewers. A 
recent study found that birders spend over $8.5 billion yearly 
in birding activities. This does not include the hunting of 
migratory birds which generated an additional $1.3 billion. 
This same study found that birding and the hunting of birds in 
the U.S. created 191,000 jobs in 1991. Ecotourism, much of it 
related to birders, is growing. At Chincoteague National 
Wildlife Refuge in Virginia, a study was conducted from 1993 to 
1994 focusing on birding ecotourism. The study found that 
95,970 birders visited Chincoteague during the year spending a 
total of $33.2 million, $9.7 million in the local community. At 
the Santa Ana National Wildlife Refuge in south Texas, over 
99,000 birders visited in one year from all 50 States to view 
the 388 species of birds found there. The visitors spent $14.4 
million in McAllen, Texas and many bird festivals are promoted 
in this area of Texas and around the nation by local chambers 
of congress. Birding is big business.
    Often over looked economic benefits from birds are their 
major contributions to the health and functioning of 
ecosystems. Scott Robinson has pointed out these benefits in 
his widely quoted article, The Case of the Missing Songbird. 
Forest birds eating insects result in greater tree growth and a 
longer period between insect outbreaks, with these services 
worth as much as $5,000 per year for each square mile of 
forest; in addition, birds are valuable as seed dispersers and 
pollinators of plants.
    The passage, full funding and implementation of H.R. 39 
could help prevent further declines in avian species. Habitat 
loss and fragmentation, while serious in this country, is 
growing in Latin America and the Caribbean. Population growth, 
economic development activities, and spreading agriculture are 
resulting in destruction of forests, wetlands, and critical 
riparian areas, all essential for birds. For example, the 
Dickcissel is a common grassland neotropical migratory bird, 
found in the American mid-west during spring through fall. The 
Dickcissel population declined mysteriously by 40 percent from 
1966 to 1994. Researchers launched a study and tracked the 
migrating birds to the llanos of Venezuela where they spend the 
winter months. This wetland area has been partially converted 
to intensive rice and sorghum agriculture and the Dickcissels 
had learned to feed upon the crops. Researchers found the cause 
of the decline rooted in lethal controls employed by these rice 
and sorghum farmers in Venezuela. Known as the ``rice bird'' in 
Venezuela, the Dickcissel is considered an agricultural pest 
and some farmers use pesticides to kill hundreds of thousands 
of birds. Organophosphates such as parathion and azodrin are 
used to intentionally kill the birds at feeding and drinking 
areas and by spraying roost sites that may contain three 
million birds (30 percent of the entire population). These 
lethal control methods are continuing, leaving the Dickcissel 
exposed to potentially catastrophic mortality. Responding to 
this problem, ABC's Policy Council has stimulated a game plan 
to resolve this issue under the leadership of Gian Basili of 
Florida Audubon, the key researcher on the Dickcissel. In June 
1998, ABC and the National Fish and Wildlife Foundation funded 
a workshop held at the heart of the bird's wintering ground in 
the llanos. Attending were representatives from Venezuelan 
government agencies, local universities, conservation groups, 
farmers' cooperatives and biologists from agricultural 
extension services. The U.S. delegation included 
representatives from ABC, National and Florida Audubon, 
National Fish & Wildlife Foundation, and The Nature 
Conservancy, plus the U.S. Department of Agriculture's top 
expert on bird damage to rice. The Venezuelans were positively 
impressed by the strong U.S. showing, which underscored the 
importance of the issue. The group formed an alliance, and 
crafted a statement of their mission: to promote, develop and 
execute actions necessary to implement an integrated management 
strategy for Dickcissels in rice and sorghum fields of 
Venezuela. Producers of these crops also signed a letter of 
intention with Venezuela Audubon. The group determined the need 
to hire someone to implement on-the-ground actions that would 
help farmers while also reducing the risk Dickcissels face from 
catastrophic mortality. There is considerable urgency to obtain 
funding and launch this program to protect the Dickcissel. 
Funding is needed for $20,000 to employ a full time director in 
the llanos but has yet to materialize. H.R. 39 and its funding 
could be used to provide one-third of the cost of such a 
position.
    ABC also was involved in the protection of another 
neotropical migratory bird, the Swainson's Hawk. Scientists 
were puzzled by declines in this Hawks' numbers and used 
telemetric devices placed on the Hawks to trace their migration 
and ascertain their wintering locations. It was learned that 
the Swainson's Hawks migrate from the American West and Canada 
to winter in the pampas of Argentina. During this study, an 
estimated 20,000 Swainson's Hawks were killed by pesticides in 
Argentina in 1995-1996. The land in the pampas region studied 
had been converted to alfalfa, sunflowers and other crops and 
the Hawks fed voraciously on grasshoppers inhabiting these 
fields. Monocrotophos was sprayed to kill the grasshoppers and 
was killing the Hawks as well. This acutely toxic insecticide 
had been taken off the U.S. market in 1988. ABC urged Ciba-
Geigy (now Novartis) to stop the manufacture and distribution 
of monocrotophos globally. Ciba-Geigy agreed to a meeting at 
the Washington, DC headquarters of ABC, and the Governments of 
Argentina, Canada, and the U.S. sent representatives to try and 
resolve these mortalities. At this August 1996 meeting, a 
formal agreement was reached and later signed that included a 
withdrawal plan for monocrotophos from the pampas and an 
extensive advertising campaign involving the farmers. The 
International Office of the U.S. Fish and Wildlife Service 
helped fund the cooperative venture and training sessions were 
conducted in Argentina for toxicologists and field personnel. 
ABC's Argentinean partner, the Associacion Ornitologica del 
Plata, also was involved in the effort. Subsequent to the 
agreement, Swainson's Hawk mortality from pesticides was 
reduced to a few dozen birds. Novartis is now withdrawing 
monocrotophos globally on a phased basis and ABC has begun a 
Pesticides and Birds Campaign. Working with leading 
toxicologists from the U.S. and Canada on a pesticides work 
group, ABC hopes to reduce the mortality of birds and other 
wildlife from pesticides in this nation and in Latin America 
and the Caribbean. A small grant to help promote safer 
agricultural practices could prevent incidents such as the 
killing of thousands of Swainson's Hawks.
    We are pleased to support H.R. 39 and to work with the 
Congress in beginning a concerted campaign to assure that the 
remaining bird species in the U.S. flourish and that none go 
the way of the Passenger Pigeon and the Carolina Parakeet. 
American Bird Conservancy offers our complete support and 
assistance in developing and implementing such a campaign, 
including the Neotropical Migratory Bird Conservation Act. ABC 
is uniquely poised and already involved in many efforts to 
conserve neotropical migratory birds and looks forward to the 
partnerships that could be initiated under this legislation.
[GRAPHIC] [TIFF OMITTED] T5004.012

[GRAPHIC] [TIFF OMITTED] T5004.013

[GRAPHIC] [TIFF OMITTED] T5004.014

[GRAPHIC] [TIFF OMITTED] T5004.015

[GRAPHIC] [TIFF OMITTED] T5004.016

[GRAPHIC] [TIFF OMITTED] T5004.017

[GRAPHIC] [TIFF OMITTED] T5004.018

[GRAPHIC] [TIFF OMITTED] T5004.019

[GRAPHIC] [TIFF OMITTED] T5004.020

[GRAPHIC] [TIFF OMITTED] T5004.021

[GRAPHIC] [TIFF OMITTED] T5004.022

[GRAPHIC] [TIFF OMITTED] T5004.023

[GRAPHIC] [TIFF OMITTED] T5004.024


</pre></body></html>
